<html>
<title> - STRENGTHENING ACCREDITATION TO BETTER PROTECT STUDENTS AND TAXPAYERS</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]


                     STRENGTHENING ACCREDITATION TO
                        BETTER PROTECT STUDENTS
                             AND TAXPAYERS

=======================================================================

                                HEARING

                               BEFORE THE

                         COMMITTEE ON EDUCATION
                           AND THE WORKFORCE
                     U.S. HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             FIRST SESSION

                               __________

             HEARING HELD IN WASHINGTON, DC, APRIL 27, 2017

                               __________

                           Serial No. 115-14

                               __________

  Printed for the use of the Committee on Education and the Workforce
  
  
 
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]  


      Available via the World Wide Web: www.gpo.gov/fdsys/browse/
           committee.action?chamber=house&committee=education
                                   or
            Committee address: http://edworkforce.house.gov
                
                
                                __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
25-136 PDF                  WASHINGTON : 2017                     
          
----------------------------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free). 
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="c4a3b4ab84a7b1b7b0aca1a8b4eaa7aba9ea">[email&#160;protected]</a>                
                
                
                COMMITTEE ON EDUCATION AND THE WORKFORCE

               VIRGINIA FOXX, North Carolina, Chairwoman

Joe Wilson, South Carolina           Robert C. ``Bobby'' Scott, 
Duncan Hunter, California                Virginia
David P. Roe, Tennessee              Ranking Member
Glenn ``GT'' Thompson, Pennsylvania  Susan A. Davis, California
Tim Walberg, Michigan                Raul M. Grijalva, Arizona
Brett Guthrie, Kentucky              Joe Courtney, Connecticut
Todd Rokita, Indiana                 Marcia L. Fudge, Ohio
Lou Barletta, Pennsylvania           Jared Polis, Colorado
Luke Messer, Indiana                 Gregorio Kilili Camacho Sablan,
Bradley Byrne, Alabama                 Northern Mariana Islands
David Brat, Virginia                 Frederica S. Wilson, Florida
Glenn Grothman, Wisconsin            Suzanne Bonamici, Oregon
Steve Russell, Oklahoma              Mark Takano, California
Elise Stefanik, New York             Alma S. Adams, North Carolina
Rick W. Allen, Georgia               Mark DeSaulnier, California
Jason Lewis, Minnesota               Donald Norcross, New Jersey
Francis Rooney, Florida              Lisa Blunt Rochester, Delaware
Paul Mitchell, Michigan              Raja Krishnamoorthi, Illinois
Tom Garrett, Jr., Virginia           Carol Shea-Porter, New Hampshire
Lloyd K. Smucker, Pennsylvania       Adriano Espaillat, New York
A. Drew Ferguson, IV, Georgia

                      Brandon Renz, Staff Director
                 Denise Forte, Minority Staff Director
                                
                                
                              -----------                                

                            C O N T E N T S

                              ----------                              
                                                                   Page

Hearing held on April 27, 2017...................................     1

Statement of Members:
    Foxx, Hon. Virginia, Chairwoman, Committee on Education and 
      the Workforce..............................................     1
        Prepared statement of....................................     3
    Scott, Hon. Robert C. ``Bobby'', Ranking Member, Committee on 
      Education and the Workforce................................     4
        Prepared statement of....................................     5

Statement of Witnesses:
    McComis, Mr. Michale S., Executive Director, Accrediting 
      Commission of Career Schools and Colleges..................    35
        Prepared statement of....................................    37
    Miller, Mr. Ben, Senior Director for Post-Secondary 
      Education, Center for American Progress....................    24
        Prepared statement of....................................    26
    Petrisko, Ms. Mary Ellen, President, Washington Association 
      of Schools and Colleges, Senior College and University 
      Commission.................................................     7
        Prepared statement of....................................    10
    Pruitt, Dr. George A., President, Thomas Edison State 
      University.................................................    13
        Prepared statement of....................................    15

Additional Submissions:
    Ms. Petrisko:
        WASC Senior College and University Commission............    82
        Article: Inside Higher Ed................................    85
        WASC Senior College and University Commission: WSCUC'S 
          Graduation Rate Dashboard..............................    89
    Dr. Pruitt:
        Homeroom.................................................    92
    Questions submitted for the record by:
        Chairwoman Foxx 



        Roe, Hon. Phil, a Representative in Congress from the 
          State of Tennessee 



        Messer, Hon. Luke, a Representative in Congress from the 
          State of Indiana.......................................   100
        Rooney, Hon. Francis, a Representative in Congress from 
          the State of Florida 



    Response to questions submitted:
        Mr. McComis..............................................    96
        Ms. Petrisko.............................................   111
        Dr. Pruitt...............................................   122

 
                     STRENGTHENING ACCREDITATION TO
                        BETTER PROTECT STUDENTS
                             AND TAXPAYERS

                              ----------                              


                        Thursday, April 27, 2017

                        House of Representatives

                Committee on Education and the Workforce

                            Washington, D.C.

                              ----------                              

    The Committee met, pursuant to call, at 10:00 a.m., in Room 
2175, Rayburn House Office Building. Hon. Virginia Foxx 
[chairwoman of the committee] presiding.
    Present: Representatives Foxx, Roe, Thompson, Walberg, 
Guthrie, Messer, Byrne, Grothman, Stefanik, Allen, Lewis, 
Mitchell, Garrett, Smucker, Ferguson, Scott, Davis, Courtney, 
Polis, Bonamici, Takano, Adams, Norcross, Blunt Rochester, 
Krishnamoorthi, and Espaillat.
    Staff Present: Bethany Aronhalt, Press Secretary; Courtney 
Butcher, Director of Member Services and Coalitions; Emmanual 
Guillory, Professional Staff Member; Amy Raaf Jones, Director 
of Education and Human Resources Policy; Nancy Locke, Chief 
Clerk; Dominique McKay, Deputy Press Secretary; James Mullen, 
Director of Information Technology; Krisann Pearce, General 
Counsel; Jenny Prescott, Professional Staff Member; Alex Ricci, 
Legislative Assistant; Mandy Schaumburg, Education Deputy 
Director and Senior Counsel; Emily Slack, Professional Staff 
Member; Tylease Alli, Minority Clerk/Intern and Fellow 
Coordinator; Austin Barbera, Minority Press Assistant, Jacque 
Chevalier, Minority Director of Education Policy; Denise Forte, 
Minority Staff Director; Mishawn Freeman, Minority Staff 
Assistant; Christian Haines, Minority Senior Education Policy 
Counsel; Carolyn Hughes, Minority Deputy Director Health 
Policy/Senior Labor Policy Advisor; Veronique Pluviose, 
Minority General Counsel; Katherine Valle, Minority Education 
Policy Advisor; and Christopher Zbrozek, Minority Education 
Detailee.
    Chairwoman Foxx. A quorum being present, the Committee on 
Education and the Workforce will come to order.
    Good morning, and welcome to today's hearing.
    Earlier this year, the committee met to examine some of the 
challenges facing America's higher education system. Costs are 
rising at private and public institutions. Far too many 
individuals are failing to complete their education in a timely 
manner. Misguided rules are stifling innovation on campuses and 
creating new burdens on institutions across the country.
    At the same hearing, we discussed opportunities to help 
address these challenges, opportunities like empowering 
students to make informed decisions, simplifying student aid, 
and promoting innovation, access, and completion.
    Today, we continue our work to strengthen higher education 
by taking a closer look at another one of the key principles 
guiding our efforts, providing strong accountability for 
students and taxpayers.
    In higher education, one way we ensure accountability is 
the
    accreditation process. Accrediting agencies are voluntary 
private organizations made up of members from accredited 
colleges and universities. These agencies work with their 
member institutions to develop standards and criteria to 
determine what constitutes a high quality higher education 
institution. Then through a non-governmental system of peer 
review, the agencies decide if an institution meets those 
standards.
    By giving their stamp of approval, accreditation agencies 
provide students and parents with an assurance that an 
institution meets certain standards when it comes to delivering 
a high quality education.
    Families rely on accreditors to hold schools accountable 
for the education they provide, and to ensure these schools are 
producing results for their students.
    Congress also relies on accreditors. Accreditation helps 
determine which schools are permitted to participate in Federal 
student aid programs. These important programs allow students 
at eligible schools to receive Federal funds, and we need to 
know these hard-earned taxpayer dollars are going only to 
institutions that are serving students well.
    The accreditation process is critical to providing 
accountability in the higher education system. However, like 
many aspects of higher education, accreditation is in need of 
improvement.
    It has never been and should never be the Federal 
Government's role to judge the quality of a school's education 
programs. Entrusting independent accrediting agencies with that 
responsibility protects academic freedom and student choice.
    However, in recent years, accreditors have been forced to 
focus on compliance rather than promoting academic integrity, 
undermining the process and its purpose. It is time for a 
better approach.
    We need to focus Federal accreditation requirements on 
academic quality and student learning. We need to ensure 
Federal rules are clear and easy to follow. We need to improve 
or do away with regulations that discourage or prevent 
innovation in higher education, and we need to make sure that 
the Administration, whether Democrat or Republican, does not 
have the power to recklessly second-guess the tough decisions 
accreditation agencies make.
    These are all things Congress can do to improve the 
accreditation process, but if we are going to see real change, 
accreditors have a job to do as well.
    It is not enough to refocus Federal rules. Accreditors must 
also embrace the commitment to high quality and improved 
outcomes. Students need an honest and accurate assessment when 
it comes to the quality of education a school provides. An 
accreditation agency's stamp of approval means something to 
those students, or at least it should mean something.
    Accreditors also need to be open to innovation and the 
opportunities it can create in higher education. If we are 
going to roll back rigid Federal requirements, it is up to 
accrediting agencies to take the flexibility we are working to 
provide and do something meaningful with it.
    By working together, Congress and accreditors, we can 
improve the accreditation system, ensuring a balance between 
flexibility for institutions and accountability for students 
and taxpayers.
    We are here today to gain a better understanding of the 
challenges facing the accreditation system, as well as how we 
can tackle those challenges.
    I look forward to hearing from our witnesses and advancing 
solutions that will provide greater accountability in higher 
education, and ensure the accreditation process serves the best 
interests of students, families, and taxpayers.
    With that, I yield to Ranking Member Scott for his opening 
remarks.
    [The information follows:]

  Prepared Statement of Hon. Virginia Foxx, Chairwoman, Committee on 
                      Education and the Workforce

    Earlier this year, the committee met to examine some of the 
challenges facing America's higher education system. Costs are rising 
at private and public institutions. Far too many individuals are 
failing to complete their education in a timely manner. Misguided rules 
are stifling innovation on campuses and creating new burdens on 
institutions across the country.
    At that same hearing we discussed opportunities to help address 
these challenges--opportunities like empowering students to make 
informed decisions; simplifying student aid; and promoting innovation, 
access, and completion.
    Today, we continue our work to strengthen higher education by 
taking a closer look at another one of the key principles guiding our 
efforts--providing strong accountability for students and taxpayers.
    In higher education, one way we ensure accountability is the 
accreditation process. Accrediting agencies are voluntary private 
organizations made up of members from accredited colleges and 
universities. These agencies work with their member institutions to 
develop standards and criteria to determine what constitutes a high-
quality higher education institution. Then, through a non-governmental 
system of peer review, the agencies decide if an institution meets 
those standards.
    By giving their stamp of approval, accreditation agencies provide 
students and parents with an assurance that an institution meets 
certain standards when it comes to delivering a high-quality education. 
Families rely on accreditors to hold schools accountable for the 
education they provide and to ensure those schools are producing 
results for their students.
    Congress also relies on accreditors. Accreditation helps determine 
which schools are permitted to participate in federal student aid 
programs. These important programs allow students at eligible schools 
to receive federal funds, and we need to know those hard-earned 
taxpayer dollars are only going to institutions that are serving 
students well.
    The accreditation process is critical to providing accountability 
in the higher education system. However, like many aspects of higher 
education, accreditation is in need of improvement.
    It has never been and should never be the federal government's role 
to judge the quality of a school's education programs. Entrusting 
independent accrediting agencies with that responsibility protects 
academic freedom and student choice. However, in recent years, 
accreditors have been forced to focus on compliance rather than 
promoting academic integrity, undermining the process and its purpose. 
It's time for a better approach.
    We need to refocus federal accreditation requirements on academic 
quality and student learning. We need to ensure federal rules are clear 
and easy to follow. We need to improve--or do away with--regulations 
that discourage or prevent innovation in higher education. And we need 
to make sure the administration--whether Democrat or Republican--does 
not have the power to recklessly second-guess the tough decisions 
accreditation agencies make.
    These are all things Congress can do to improve the accreditation 
process, but if we are going to see real change, accreditors have a job 
to do as well.
    It's not enough to refocus federal rules. Accreditors must also 
embrace a commitment to high-quality and improved outcomes. Students 
need an honest and accurate assessment when it comes to the quality of 
education a school provides. An accreditation agency's stamp of 
approval means something to those students, or at least it should mean 
something.
    Accreditors also need to be open to innovation and the 
opportunities it can create in higher education. If we are going to 
roll back rigid federal requirements, it's up to accrediting agencies 
to take the flexibility we are working to provide and do something 
meaningful with it.
    By working together--Congress and accreditors--we can improve the 
accreditation system, ensuring a balance between flexibility for 
institutions and accountability for students and taxpayers.
    We are here today to gain a better understanding of the challenges 
facing the accreditation system, as well as how we can tackle those 
challenges. I look forward to hearing from our witnesses and advancing 
solutions that will provide greater accountability in higher education 
and ensure the accreditation process serves the best interests of 
students, families, and taxpayers.
                                 ______
                                 
    Mr. Scott. Thank you, Madam Chair, and I would like to 
thank you for calling this hearing, and thank our distinguished 
witnesses for being with us today.
    The issue of quality in higher education is not one that we 
address often in Congress. The higher education system in the 
United States is one of if not the best in the world, and we 
frequently spend our time debating how to increase access to 
the system or how to make college more affordable, and not just 
in quality.
    While these are topics that I am sure we will continue 
debating, it is important to take a step back to determine if 
we are ensuring that our higher education system maintains its 
high level of quality across all sectors for all students.
    While the Federal Government and State authorizers both 
have important roles to play in assuring quality, independent 
accrediting bodies should be the true arbiters of quality in 
our higher education system.
    Their thoughtful peer review process is designed to ensure 
that institutions are living up to their educational mission, 
whether it is providing students with an education that will be 
the basis of lifetime learning, or preparing them to excel in a 
specific field or career.
    The title of this hearing alludes to the fact that while 
students depend on accreditors, taxpayers do as well. Over $150 
billion in Federal student aid is disbursed every year, and it 
can only go to institutions of higher education that have been 
accredited by a federally recognized accreditor. As such, there 
are huge fiscal implications in the quality and rigor of the 
accreditation process.
    While the accreditation system works well for many schools, 
it must be improved. We know that there have been schools that 
were fully accredited up until the day they closed their doors, 
leaving students out in the cold and taxpayers holding the bag.
    We also know that there are schools that remain accredited 
while offering their students little chance to obtain a degree 
or get a credential that has little value in the marketplace.
    There is emerging research that shows that in some cases, 
the outcomes at some fully accredited schools are so poor that 
students would have been better off not going to school at all 
rather than attending those schools.
    The Federal Government has begun to respond to these 
problems in accreditation. The Federal Government has an 
interest in whether or not a school is accredited because of 
the billions of dollars in Federal aid, and if the accreditors 
aren't doing the job, the Federal Government has to do the job, 
and that is where programs like Gainful Employment and other 
measures have come up.
    To the extent that the accreditors fail, we are going to 
have to come up with those kinds of answers. Over the last two 
years, the Department of Education has proposed actions to make 
the accreditation system more transparent, and to provide more 
information on standards that accreditors use to rate schools.
    Last year, the National Advisory Committee on Institutional 
Quality and Integrity derecognized the Accrediting Council for 
Independent Colleges and Schools, putting other accreditors on 
notice that subpar standards and a documented history of 
turning a blind eye to bad actors would not be tolerated.
    It seems like many accreditors got the message, and we have 
seen proposed reforms from accreditors based on recommendations 
from the previous Administration.
    I know accreditors want to improve, and they want to ensure 
that their members still provide a top-notch education, but we 
are at a crossroads. There is no guarantee that the new 
Administration is going to take a critical view on the need to 
improve accreditation, and I worry that the improvements we 
have seen of late could falter without the oversight and 
pressure from the Federal Government.
    Accreditation can be a peer-based program designed to 
foster self-improvement and be responsive to data on student 
outcomes. It can meet the needs of vastly different 
institutions but still use common terms and measures.
    It can respect the internal decisions and choices of an 
institution and still be transparent.
    We can have the best accreditation system in the world for 
the best higher education system in the world, and hopefully, 
our witnesses today will provide the perspective on how we can 
do just that.
    Thank you, Madam Chair, and I yield back.
    Chairwoman Foxx. Thank you, Mr. Scott. Pursuant to 
Committee Rule 7(c), all members will be permitted to submit 
written statements to be included in the permanent hearing 
record.
    Without objection, the hearing record will remain open for 
14 days to allow such statements and other extraneous material 
referenced during the hearing to be submitted for the official 
hearing record.
    [The information follows:]

 Prepared Statement of Hon. Robert C. ``Bobby'' Scott, Ranking Member, 
                Committee on Education and the Workforce

    Good morning. I would like to thank Chairwoman Foxx for calling 
this hearing and I'd like to thank our distinguished witnesses for 
being here today.
    The issue of quality in higher education is one that we address 
often here in Congress. The higher education system in the United 
States is one of, if not the best in the world, and we frequently spend 
our time debating how to increase access to the system or how to make 
college more affordable. And while these are topics that I'm sure we 
will continue debating, it is important that we take a step back and 
determine if we are ensuring that our higher education system maintains 
its high level of quality across all sectors for all students.
    While the federal government and state authorizers both have 
important roles to play in assuring quality, accrediting bodies are the 
true arbiters of quality in our higher education system. Their 
thoughtful peer review process is designed to ensure that institutions 
are living up
    to their educational mission--whether it's providing students with 
an education that will be the basis for a lifetime of learning or 
preparing them to excel in a specific field or career. The title of 
this hearing alludes to the fact that while students depend on 
accreditors, taxpayers do as well. Over $150 billion in federal student 
aid is disbursed every year, and it can only go to institutions of 
higher education that have been accredited by a federally recognized 
accreditor. As such, there are huge fiscal implications to the quality 
and rigor of accreditation reviews.
    While the accreditation systems works well for many schools, it 
must be improved. We know that there were schools that were fully 
accredited up until the point that they closed their doors, leaving 
students out in the cold and taxpayers holding the bag. We also know 
there are schools that remain accredited while offering their students 
little chance to obtain a degree, or a credential that has little value 
in the marketplace. There is emerging research that shows in the worst 
cases, the outcomes at some fully accredited schools are so poor that 
students would have been better off going to no school rather than 
attending.
    The federal government has begun to respond to these problems in 
accreditation. Over the last two years the Department of Education 
proposed actions to make the accreditation system more transparent, and 
provide more information on the standards that accreditors use to rate 
schools. Last year the National Advisory Committee on Institutional 
Quality and Integrity, (or NACIQI) derecognized the Accrediting Council 
for Independent Colleges and Schools (or ACICS), putting other 
accreditors on notice that subpar standards and a documented history of 
turning a blind eye to bad actors would not be tolerated.
    It seems like many accreditors got the message, and we have seen 
proposed reforms from accreditors based on recommendations from the 
previous administration. I know accreditors want to improve and they 
want to ensure that their members are still providing a top-notch 
education. But we are at a crossroads. There is no guarantee that the 
new Administration is going to take as critical a view on the need to 
improve accreditation, and I worry that the improvements that we've 
seen of late could falter without the oversight of the federal 
government.
    Accreditation can be a peer-based program designed to foster self-
improvement and be responsive to data on student outcomes. It can meet 
the needs of vastly different institutions but still use common terms 
and actions. It can respect the internal decisions and choices of an 
institution and still be transparent. We can have the best 
accreditation system in the world for the best higher education system 
in the world, and hopefully our witnesses here today will provide 
perspective on how we can do just that. Thank you and I yield back the 
balance of my time.
                                 ______
                                 
    Chairwoman Foxx. We now turn to introduction of our 
distinguished witnesses. Dr. Mary Ellen Petrisko is President 
of the Senior College and University Commission at the Western 
Association of Schools and Colleges. Dr. Petrisko has extensive 
experience in institutional academic leadership and regional 
accreditation and State policy.
    Dr. George Pruitt is President of the Thomas Edison State 
University. Dr. Pruitt has served in executive leadership 
positions at several postsecondary institutions, and is past 
chairman and a member of the Middle States Commission on Higher 
Education.
    Mr. Ben Miller is Senior Director for Postsecondary 
Education at the Center for American Progress. Mr. Miller's 
work focuses on postsecondary education accountability, 
affordability, and financial aid, as well as for-profit 
colleges and other issues.
    Dr. Michale McComis is Executive Director at the 
Accrediting Commission of Career Schools and Colleges. As the 
Executive Director, Dr. McComis manages the day-to-day 
operations of ACCSC's office and staff in overseeing the ACCSC 
accreditation process.
    I now ask our witnesses to raise your right hand.
    [Witnesses sworn.]
    Chairwoman Foxx. Let the record reflect the witnesses 
answered in the affirmative.
    Before I recognize each of you to provide your testimony, 
let me briefly explain our lighting system. We allow 5 minutes 
for each witness to provide testimony. When you begin, the 
light in front of you will turn green. When one minute is left, 
the light will turn yellow. At the 5 minute mark, the light 
will turn red, and you should wrap up your testimony.
    Members will each have 5 minutes to ask questions.
    I believe we are ready to begin. Dr. Petrisko, you are 
recognized for 5 minutes.

    TESTIMONY OF MARY ELLEN PETRISKO, PRESIDENT, WASHINGTON 
    ASSOCIATION OF SCHOOLS AND COLLEGES, SENIOR COLLEGE AND 
                     UNIVERSITY COMMISSION

    Ms. Petrisko. Chairman Foxx, Ranking Member Scott, and 
members of the committee, thank you for the opportunity to be 
with you today to testify.
    As noted, I am the President of the WASC Senior College and 
University Commission, which is an accrediting body serving 
public and private higher education institutions throughout 
California, Hawaii, and the Pacific, and a limited number of 
institutions outside of the U.S.
    The first accreditor of colleges and universities was 
founded in this country in 1885, when there were just 36 States 
in the Union. Just as our country has grown and developed over 
the past 130 years, so, too, had accreditation changed to 
become what it is today, an outcomes-focused system of quality 
assurance that relies on voluntary peer review.
    The work of accreditation is grounded in standards aligned 
with those dictated by U.S. statute and regulations. Since 
1952, related to the G.I. Bill, accreditors have been 
recognized as quality assurance agencies to protect the Federal 
Government's investment in higher education. Accreditation has 
traditionally existed as part of a quality assurance triad, in 
collaboration with State and Federal Government.
    Colleges and universities in the United States have an 
international reputation for exceptional quality, as does our 
system of accreditation. Indeed, many institutions outside of 
the United States aspire to be accredited by U.S. accreditors, 
but the fact that our accreditation system is a strong and much 
admired system does not mean that it and our larger quality 
assurance system triad are perfect.
    Today's hearing is focused on opportunities to improve 
accreditation. While I believe accreditors largely do a good 
job in protecting students, I also believe that steps could be 
taken in the reauthorization of the Higher Education Act to 
create a stronger accountability system and therefore better 
serve students.
    First, I'd like to tell you about some of the things we at 
WSCUC are doing to support student success and protect the 
public's investment in higher education.
    At WASC, we define ``student success'' as student learning 
and retention and completion. With regard to the latter, let me 
note that the Federal IPEDS data only measured completion for 
first time full-time students at an institution. In the WASC 
region, IPEDS covers only about 360,000 of our 900,000 
undergraduate students, making more than 500,000 students 
invisible.
    To address the insufficiency of these data, WASC has 
developed what we call the ``Graduation Rate Dashboard,'' a 
tool that enables us to see how many students graduate from an 
institution, and importantly, no matter their enrollment status 
or time to degree.
    Given that the majority of our students fall outside the 
IPEDS' measure, this is an important development. The Dashboard 
can provide institutions with more complete and inclusive 
information regarding student success, shine light on 
enrollment, retention, and graduation patterns, and allow both 
WASC and the institution to better identify and address issues 
that affect student success.
    I've included additional information about this tool in my 
written testimony, as well as information about our work with 
the National Student Clearinghouse to expand our ability to 
assess institutional effectiveness.
    As student completion is important to all accreditors, the 
Council of Regional Accreditors, or C-RAC, recently launched a 
nationwide effort to place increased emphasis on graduation 
rates as part of our ongoing review of colleges and 
universities.
    Each accrediting body will use at a minimum a 15 percent 
IPEDS' graduation rate for two year institutions, and a 25 
percent rate for four year institutions--those numbers are 
about half the national average--as triggers to more closely 
examine institution's student success and plans for 
improvement.
    Let me conclude by making three recommendations for the 
strengthening of our system of accountability related to 
innovation, transparency, and appropriate levels of regulation.
    First and foremost, I believe it is critical that the HEA 
reauthorization support the innovation necessary to serve 
current and especially future students, and that it will allow 
accreditors the flexibility to review and approve innovations 
in a safe zone as is allowed by current experimental sites.
    As our regional undergraduate population shows, the 
majority of students today do not go to one institution full-
time or finish within four years. I hope that the 
reauthorization will keep these changing student demographics 
in mind.
    Secondly, whatever steps are taken to provide greater 
transparency should ensure that students can access accurate 
and relevant information on our institutions. Currently 
available data from the College Navigator and College Scorecard 
are sometimes inaccurate, sometimes in conflict with one 
another, and limited due to their reliance on IPEDS. Better 
information can help students make better choices and promote 
enhanced accountability.
    Understanding this, we at WASC have published all of our 
team reports and Commission action letters since July of 2012.
    Finally, I hope that excessive regulations, such as those 
related to substantive change and credit hour, will be 
addressed and moderated. Such regulations inhibit innovation, 
add costs and burden to institutions, and do not add value.
    Chairman Foxx, Ranking Member Scott, thank you very much 
for the opportunity to testify. I look forward to answering 
your questions.
    [The statement of Ms. Petrisko follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Chairwoman Foxx. Thank you very much. Dr. Pruitt, you are 
recognized for 5 minutes.

 TESTIMONY OF GEORGE A. PRUITT, PRESIDENT, THOMAS EDISON STATE 
                           UNIVERSITY

    Mr. Pruitt. Thank you. Madam Chairwoman and members of the 
committee, in December, I completed three successive terms as 
Chair of the Middle States Commission on Higher Education.
    Prior to that, I served for almost 19 years, under five 
Secretaries of Education, under three Presidents of both 
parties, as a member of the National Advisory Committee on 
Institutional Quality and Integrity, otherwise known as NACIQI, 
but today I come before you to provide an institutional 
perspective.
    Thomas Edison State University is a specialty university. 
We were created with the mission of providing flexible, high 
quality collegiate learning opportunities for self-directed 
adults. The average age of our student body is approximately 
40, and we do not regularly admit students under the age of 21 
unless they are community college graduates or active duty 
military.
    With an enrollment of 17,500 students, we are the third 
largest college or university in the State of New Jersey. We 
were among the first institutions in creating what is now known 
as ``prior learning assessment.'' We were one of the first 
regionally accredited colleges or universities in the United 
States to offer complete degree programs online.
    While we are noted for our innovation in the serving of 
adult learners, we are proudest of the recognition we receive 
for the quality and integrity of our academic work.
    Regionally accredited institutions value their 
participation as members of quality assurance communities. 
While reasonable Federal oversight over the use of public funds 
is important and necessary, we believe that peer affirmation of 
quality tested against agreed upon standards promulgated by 
recognized academic authorities, has been essential in 
producing the finest set of academic institutions in the world.
    There are four basic things we would all like to see from 
our accreditors. First, standards that respect the rich 
diversity and institutional mission and the different student 
populations we serve through a process of self-study and peer 
review.
    Ten miles down the road from us is Princeton University, 
one of the finest institutions in the world, yet our two 
universities could not be more different. Both of high quality, 
but with very different missions serving two very different 
populations that require different analytics to understand us.
    Second, accreditation focused on objectively demonstrable 
student learning outcomes.
    Third, accreditation conclusions about institutional 
effectiveness that are based on objective evidence, appropriate 
metrics, and where possible, third party validation.
    The emphasis should be on appropriate metrics that are 
aligned with the individual mission of the institution, and not 
a one-size-fits-all template, using misplaced data, such as 
graduation rates. If graduation rate is the wrong metric, then 
what are some of the right ones?
    For example, Thomas Edison State University graduates 
achieved the highest pass rate of all New Jersey institutions 
on the National Public Accountancy Exam for three of the last 
five years.
    In 2012 and 2014, the graduates of our Accelerated 
Baccalaureate Nursing Program earned a 100 percent pass rate on 
the State licensure exam. In fiscal 2016, 77 percent of our 
graduates were admitted to graduate schools, and only 7 percent 
of the students that stopped out of our institution did so for 
academic reasons.
    The vast majority of students enrolled in American higher 
education today are over the age of 25 and attend college part-
time. The traditional 18-year-old going to college full-time 
expecting to graduate in four years is a shrinking piece of the 
higher education pie. Accordingly, the metrics of 
accountability to be of any value must reflect this new 
reality. You'll never get the right answer to the wrong 
question.
    Finally, accreditors should continue to oppose the 
substitution of compliance for quality assurance that is 
stemming from well-intentioned but misguided regulation by the 
Department of Education.
    I believe that Middle States and the other regional 
accreditors are meeting these four benchmarks. We all 
understand that there have been some well publicized examples 
of institutions that have lost their way, compromised the 
public trust, misused public resources, and hurt the students 
that were enlisted into their care.
    While these institutions should be held accountable by 
their accreditors, regulators, and consumers, the broad system 
of accreditation is fundamentally sound, but we must always be 
involved in a process of continuous improvement.
    Accreditation should not be expected to prevent the failure 
of institutions. Instead, it should be the proverbial canary in 
the coal mine, identifying weak institutions, strengthening 
them where possible, and alerting the regulators and protecting 
students when institutions become severely challenged.
    However, in our effort to improve the system, we must not 
impose remedies that do more harm than the maladies they seek 
to cure.
    Thank you.
    [The statement of Dr. Pruitt follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Chairwoman Foxx. Thank you, Dr. Pruitt. Mr. Miller, you are 
recognized for 5 minutes.

  TESTIMONY OF BEN MILLER, SENIOR DIRECTOR FOR POSTSECONDARY 
            EDUCATION, CENTER FOR AMERICAN PROGRESS

    Mr. Miller. Thank you, Chairwoman Foxx and Ranking Member 
Scott for the opportunity to testify today.
    Every year, students and taxpayers invest billions of 
dollars in higher education, seeking better lives and a 
stronger economy. We trust a triad of States, the Federal 
Government, and accreditation agencies to ensure those 
investments pay off. The triad is failing us.
    While no part of the triad is blameless, accreditors have 
either stood by or acted with molasses-like speed while 
taxpayer dollars and student dreams got wasted. Every campus of 
Corinthian Colleges maintained accreditation until the day it 
closed or was sold, even as allegations of falsified job 
placement rates, altered grades, and inadequate education piled 
up.
    There are many schools of all types today that can proudly 
advertise their accreditation status while producing high 
levels of borrowing, low completion rates, and poor repayment 
outcomes.
    Do accreditors know about these problems? Yes. They wag 
their fingers and sometimes issue threats. They rarely pull the 
plug.
    Everyone in this room pays for this inaction. As taxpayers, 
we all pay when Federal loans are forgiven due to fraud or aid 
does not become a degree.
    Today, we are fortunate to hear from two of the most 
forward thinking accreditation agencies, but remember, the good 
things they are doing are voluntary. Many other agencies have 
not followed their lead.
    For example, WASC has required the publication of 
accreditation team reports for nearly a half decade. No other 
accreditor has done so. ACCSC requires independent verification 
of outcomes data. The other large national agency blew off the 
need for this action until its existence was threatened.
    And, just as the accreditation system contains WASC and 
ACCSC, so, too, did it have the Accrediting Council for 
Independent Colleges and Schools. ACICS served as a safe haven 
for troubled colleges fleeing scrutiny from other accreditors. 
Its quality assurance work was literal box checking.
    ACICS' results were grim. It approved over a dozen schools 
that faced Federal or State investigations for wrongdoing. 
Those schools received $5.7 billion in Federal aid over just 
three years. 90 times ACICS named one of those campuses to its 
Honor Roll for an excellent understanding of the accreditation 
process.
    These problems persist because we have created a system of 
quality assurance that says success means doing the things you 
said you'd do, not the actual results achieved.
    So, what can Congress and accreditors do? First, Congress 
should make the system much more outcomes focused. Accreditors 
should judge schools primarily on the results of their 
students, and the Federal Government in turn should judge 
accreditors by how well they do, not just whether they have 
mandated standards in place.
    Second, the system needs to get a lot tougher on lower 
performing colleges. Institutions with abysmal completion rates 
or no evidence of learning need stricter scrutiny. They should 
pay much more up front for their reviews, giving accreditors 
resources needed for deeper dives. A greater focus on the 
bottom should also come with an easier approval process for 
schools at the top.
    Third, we need new alternative approaches to quality 
assurance that allow new providers with verifiably outstanding 
performance to access Federal aid.
    Here is the Center for American Progress's idea for how 
that could work. Private third parties would propose indicators 
of student outcomes and financial health a program would have 
to meet in order to access Federal aid. Only the best should be 
able to clear the bars.
    The Federal Government would then verify whether the 
programs seeking aid meet those standards and take action to 
approve or deny a program accordingly.
    This approach marries the best elements of the current 
system while fixing many of its flaws. It preserves a role for 
third parties that have experience judging programs. It solves 
conflicts of interest by separating out who sets standards from 
who determines eligibility, and it leverages data the Federal 
Government already holds on earnings and loan outcomes to 
minimize the need for additional data collection.
    A high quality college education can unlock a lifetime of 
benefits, but low quality programs can cause financial ruin, 
especially if Federal student loans are involved. Students and 
taxpayers today trust accreditation as a stamp of quality that 
their money will be worth it. We have a ways to go to ensure 
that is true.
    Thank you very much, and I look forward to your questions.
    [The statement of Mr. Miller follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Chairwoman Foxx. Thank you. Dr. McComis, you are recognized 
for 5 minutes.

     TESTIMONY OF MICHALE S. McCOMIS, EXECUTIVE DIRECTOR, 
     ACCREDITING COMMISSION OF CAREER SCHOOLS AND COLLEGES

    Mr. McComis. Good morning, Madam Chair, Ranking Member 
Scott, and members of the committee. My name is Dr. Michale 
McComis, and I'm the Executive Director of the Accrediting 
Commission of Career Schools and Colleges.
    I'm honored to appear before the committee this morning to 
discuss accreditation, the contributions it makes to the 
quality of education in this country, and the ways it might be 
improved.
    Accreditation has been relied upon for educational quality 
assessment purposes by the Federal Government for over six 
decades. Although accreditation has come under increased 
scrutiny by policymakers, accreditation can and should continue 
to serve in its gatekeeping capacity, albeit in a strengthened 
form.
    Accreditation employs a collaborative approach within a 
peer review network that identifies best practices and assesses 
how well an institution meets those best practice standards. It 
is not nor can it be a one-size-fits-all system with 
rudimentary metrics that do not take into account diverse 
objective and qualitative elements of an institution's 
operations and success.
    Accreditation derives its strength from four essential 
pillars that are built upon a foundation of peer review, 
standards or best practices, self-evaluation, ongoing 
institutional improvement, and accountability.
    Accreditation serves a myriad of institutions accredited by 
agencies with different standards and expectations of student 
outcomes. This is both appropriate and necessary, and should be 
viewed as a strength to our system.
    But Congress should consider changes to the Higher 
Education Act that will strengthen accrediting agencies, 
however, without injecting undue Federal intrusion into the 
learning process or that might serve as a barrier to 
innovation.
    Judgments regarding the effectiveness of accreditation 
should not lose sight of the fact that the oversight of higher 
education is a shared responsibility amongst the triad 
partners, accreditors, States, and the Federal Government, 
working together, which strengthens the existing oversight 
system.
    So then, how can accreditation be strengthened through the 
Higher Education Act? The following are some suggestions that I 
hope the committee might consider.
    Outcomes. Outcome measures are not a one-size-fits-all 
solution and should not be mandated by Congress or the U.S. 
Department of Education. However, accreditors must define the 
right set of measures and metrics to evaluate institutional and 
student success.
    At ACCSC, we measure rates of graduation, employment, 
licensure, and required learning and competency assessment.
    Transparency. Accreditors should be expected to provide 
useful disclosures of the accreditation actions taken that can 
help the general public make informed decisions about the 
quality of an institution or program.
    Differentiation. Allow for differentiated levels of 
accreditation which could place schools in different categories 
and move beyond binary decisions regarding quality.
    Credit hour definition. Seat-time requirements for funding 
programs do not preserve academic integrity nor promote 
competency-based assessment, and as such, the Federal 
definition of a ``credit hour'' and the complex clock hour 
conversion formulas should be removed from the Federal 
regulations.
    Accreditation area of focus. It may be useful to expect 
accreditors to focus more narrowly on the types of institutions 
accredited in order to ensure a strong peer review foundation 
and solid measures related to outcomes and accountability.
    Transfer of credit. Accreditors should be expected to have 
and enforce standards that prevent institutions from unfairly 
or unjustifiably denying credit transfers.
    Change of accreditors. Institutions that have been subject 
to a monitoring sanction from one accreditor should not be 
allowed for Federal financial aid purposes to seek a new 
accreditor for some set period of time after the sanction has 
been lifted.
    Lastly, indemnification. Given the high stakes associated 
with the loss of accreditation and the ensuing loss of access 
to Title IV student financial aid funding, the Federal 
Government should consider affording accreditors some 
protection as a means to prevent specious and costly lawsuits 
from being brought against accrediting agencies.
    I've also included other areas for the committee to 
consider within my written testimony, and I hope the committee 
finds these recommendations useful as it goes about its work, 
and I'm happy to provide additional details regarding each.
    Thank you for the opportunity to testify before the 
committee this morning, and I look forward to continuing the 
dialogue on ways in which we can work together to strengthen 
our accreditation system. Thank you.
    [The statement of Mr. McComis follows:]22-32
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Chairwoman Foxx. Thank you very much. You win the prize for 
coming in under time. I want to thank all of you for your 
testimony and your written testimony is even more expansive, 
and I am grateful for that.
    I will begin the questioning. Dr. Petrisko and Dr. McComis, 
I believe very strongly in ensuring accountability for hard-
working taxpayer dollars. Right now, you and your colleagues 
are responsible for ensuring $128 billion the Federal 
Government sends out in student aid every year, is flowing only 
to high quality institutions.
    Can you explain to the committee how the current system of 
accreditation with the competing roles of quality assurance and 
continuous self-improvement is able to accurately measure and 
assure institutional quality and protect the taxpayer 
investment at the same time?
    Why should Congress, and more importantly, students and 
parents, continue to rely on your agencies as reliable 
authorities for the quality of institutions of higher 
education?
    Dr. Petrisko, I will start with you, and then come to Dr. 
McComis.
    Ms. Petrisko. Thank you. It is certainly true that 
accreditors balance all the time in our decisions compliance 
with our standards and improvements at the institutions. As we 
do that, we are very keenly aware of the fact that many 
students have no other institution to attend if they are not 
able to attend the one where they are currently enrolled.
    So, we want to keep institutions strong, make them 
stronger, address the issues of non-compliance or weakened 
areas of compliance with a range of actions, not pulling the 
plug automatically, but with special reports, visits, and 
sanctions when necessary, that carry a real threat of loss of 
accreditation, but it is to maintain operations of those 
institutions that are supporting students and strengthening 
them at the same time.
    Chairwoman Foxx. Thank you. Dr. McComis?
    Mr. McComis. I'll echo what Dr. Pruitt said along the lines 
of the many successes that we can point to, even amidst some of 
the failures that are present as well.
    Insofar as measuring quality, that is a difficult aspect to 
bring about, so the richness and the diversity, the types of 
institution, and the peer review network that brings about 
individuals coming together to establish those best practice 
standards, the key being really from there setting and 
establishing those outcome measures that really set to reflect 
what quality can or should be.
    So, for example, again with my agency, because we 
predominately work with vocational and career oriented 
institutions, we can look to measures like graduation rates. We 
can look to measures like employment rates. We can look to 
measures like licensure rates. But also, at the same time, 
acknowledging that in order for a welder really to graduate, 
they need to be competent. So, competency assessment measures 
as well.
    So, all of that woven together into a system that brings 
about a highly qualified graduate that can contribute to a 
highly qualified workforce is really the main aim here.
    Chairwoman Foxx. Thank you very much. Dr. Pruitt, I agree 
with you that Thomas Edison is a special university and applaud 
the work your institution has done to serve adult learners.
    Can you discuss how a one-size-fits-all system of Federal 
accountability might jeopardize the crucial work your 
institution and other institutions like yours are doing to 
serve contemporary students? Why is it so important that 
accreditors have the flexibility to determine appropriate 
outcome metrics for ensuring the quality of institutions?
    Mr. Pruitt. Thank you, Madam Chairwoman. It is crucially 
important that metrics be mission sensitive. In the absence of 
that, metrics tend to assess the demographics of the student 
body and not the quality of the institution.
    I come back to my favorite subject about the graduation 
rates. I saw eyebrows raised from my colleague when we had a 
talk about graduation rates in the 20 something percent range, 
and everyone looked like, well, that's too low.
    Well, it is too low if your assumption is that you're going 
to college full-time and expect to graduate in four years. None 
of the 17,500 students in my institution--none of them go full-
time, none of them expect to graduate in four years. My 
colleague institution down the street, Princeton, all of them 
expect to go full-time and graduate in four years.
    So, to create one metric that you try to apply across the 
board to different institutions without regard to the 
individual mission of the institutions or the constituents that 
they are serving, distorts the picture of both institutions.
    So, the dreaded template never works for diverse 
institutions serving diverse populations. It actually misleads 
the public and looks for false indicators of quality that kind 
of confuses the conversation. That's why it's so important to 
have these indicators referenced to the specific mission of 
that particular institution against similar institutions and 
peers.
    You can do that. We have a track record of doing that. 
That's the way it should be done, and not the dreaded template. 
Thank you.
    Chairwoman Foxx. Thank you very much, Dr. Pruitt. Mr. 
Scott, you are recognized.
    Mr. Scott. Thank you, Madam Chair. Dr. Petrisko, should the 
cost of the institution be a factor in accreditation?
    Ms. Petrisko. Should the cost of the institution be a 
factor in accreditation? I want to say a couple of words about 
costs. There's a lot of misunderstanding about costs in higher 
education because a lot of people take a look at the sticker 
price as opposed to the net price.
    There is a recent publication of the Association of 
Governing Boards, which I will be happy to put into the record, 
that talks about the reality of what the real costs are of 
education and what the rise in those costs have been.
    So, for example, at the four year institution level 
publicly, over the last 26 years, this is the highest rate of 
increase, the rate of increase of the net price has been about 
3.7 percent. For community colleges, it's been about 1 percent 
a year, and for the private institutions, it's been less than 1 
percent a year. That's the net price.
    There's a vast difference because of a lot of discounting 
at the private institutions to ensure that there is some 
flexibility in pricing schedules to allow students who would 
not have the wherewithal to pay the sticker price to attend 
that institution.
    So, there is a lot of misinformation out there and it's a 
complicated issue, but the costs are not what some people might 
think they are.
    Mr. Scott. Basically, if two schools of equal quality, one 
charging two, three times more than the other, should that be a 
factor in accreditation?
    Ms. Petrisko. I would say no, it depends on how the 
students are supported to pay for those costs, and they are 
supported in different ways, by loans, grants, and 
institutional aid.
    Mr. Scott. Should false advertising be a factor in 
accreditation? Some schools promise that if you go to their 
school, you'll get a job. Others, if you come to school, you'll 
get a good education, but you may not be able to get a job.
    Ms. Petrisko. Absolutely. There is a form that our 
evaluators use to make sure that institutions are giving their 
students correct information about costs, what it really costs, 
what their job prospects are, and that their recruiting 
materials are accurate and true. So, we do require that be 
reviewed.
    Mr. Scott. I visited Dr. Pruitt's school, and enjoyed the 
visit, Dr. Pruitt. He indicated it is inappropriate to judge a 
school's outcomes without recognizing the difference in the 
demographics of the student body. One could have everybody 
coming from the top one percent, others could have high Pell-
eligible .
    Can you have a student outcome measure that does not 
recognize the diversity in the student body demographics?
    Ms. Petrisko. I do not think so. The 20 percent rate that 
Dr. Pruitt referred to, which is an IPEDS rate, when I talked 
about the Council of Regional Accrediting Bodies, we have 
examples at our institutions where the IPEDS rate goes 30 
percent, and the actual rate, not taking enrollment into 
consideration, and not taking time to degree into consideration 
through this Dashboard that I've talked about in my testimony, 
the actual rate of one institution in the California State 
system with a very high percentage of part-time students and 
students taking a very long time to get their degrees is more 
like 60 percent.
    So, it absolutely is relevant, who the students are, what 
their paths to degrees are, and how long those paths take. Just 
seeing a certain percentage of an IPEDS rate, the national 
available rate, may be an indicator, it's a trigger, as I said, 
to look further, but if that percentage, as was the case with 
one of the institutions I looked at in our region recently, if 
that percentage represents 4 percent of the student population 
or for some institutions, like Western Governors, 0 to 1 
percent, that is not giving you very good information, and 
judgments should not be made about the quality of the 
institution based on that data.
    Mr. Scott. How do you value the--how do you assess the 
value of a four year on-campus private liberal arts degree 
where most of the value in fact doesn't even come from the 
classroom but from the college experience?
    Ms. Petrisko. We expect every institution to state what its 
learning outcomes are. Institution learning outcomes, program 
learning outcomes, and if they provide evidence of the 
assessment of and the achievement of those outcomes.
    So, outcomes can be very large, very broad outcomes. We do 
expect at the institutions if they state those are outcomes for 
their students, that they show us how those students meet those 
outcomes.
    Mr. Scott. Finally, should we be assessing on a pass/fail 
basis or a relative basis throughout the spectrum? Because the 
question that we are addressing is whether you participate in 
financial aid or not. Should we have a pass/fail or have an 
assessment that differentiates all the way through the 
spectrum?
    Ms. Petrisko. There are differentiations across the 
accreditors: status of accreditation, how long, in our case, a 
reaffirmation, it could be six, eight, or 10 years, depending 
on the strength of the institution, whether there is interim 
reporting, whether there are special visits in between those 
reaffirmation periods.
    But I would say for Federal aid purposes, I wouldn't want 
to see differentiation there because the students are taking 
different paths to their degrees, and they should all have 
access to that support to be able to do so.
    Chairwoman Foxx. Thank you, Mr. Scott. Mr. Byrne, you are 
recognized for 5 minutes.
    Mr. Byrne. Thank you, Madam Chairwoman. This was great. All 
your testimony was very helpful.
    Mr. Miller's testimony hit some points that I think all of 
us would agree we need to talk about, honestly.
    I was a Chancellor for Postsecondary Education for Alabama, 
and my relationship with our accreditor was, I would call 
``appropriate,'' which meant sometimes it was uncomfortable. 
For those of you who know Dr. Belle Whelan, you know she is 
very nice about making things uncomfortable, but she needed to 
make my life uncomfortable from time to time, and that is okay, 
so I value that about it.
    We have had some failures in our accreditation agencies. 
So, the question for us is do we come in with a more heavy 
handed Federal approach to get accreditors to do what they need 
to do, or is there a way for us to turn to the accreditors 
themselves and say value your independence, which I think is 
one of your great strengths, but at the same time tell you we 
have to police ourselves better, because there have been some 
key instances where we have not done our job right.
    I thought I would like throw it out to any one of you that 
want to jump in on that. I am really looking to the other 
three, because you sort of laid the critique out there.
    I would like for you to respond to that. Do you think the 
Federal Government playing a heavier hand is going to help, or 
is there something we can do within ourselves, all of us, to 
make it work better?
    Ms. Petrisko. I think it's very important that accreditors 
have the authority to take additional steps where necessary to 
improve what we do, learning from very close work with the 
institutions and the challenges they face, learning what we 
need to do to strengthen our own systems.
    There has already been mention made of the failed 
institutions recently, and I can tell you one of the big 
changes in higher education, from which we have all learned 
recently, has been the tremendous growth in the for-profit 
sector.
    I don't think that's a secret, that public institutions are 
very strapped, many non-profit institutions are also 
financially challenged and are very concerned with selectivity. 
A great deal of growth has been in the for-profit sector.
    Just in our Commission, we currently have of our accredited 
institutions about 13 percent are for-profits. That's 23 now. 
Six years ago, we had one. If you go to the candidates, it's 
about 33 percent, if you go to the eligibles, it is about 35 
percent, the ones that are just applying, it's about 50 percent 
that are for-profits.
    So, we are very keenly aware of the fact that we need to 
have better and more inclusive information about what's going 
on.
    So, accordingly, what we have done learning this is we have 
commissioned work from PRAGO, a firm that's created the ratio 
analysis in higher education, this is what the credit analysis 
has done in higher education, pretty much across the country on 
the basis of seven financial ratios.
    We've worked with them to give us a better foundation. 
We're still in the process of getting this report. Getting a 
better foundation for how to look not just at institutions but 
with their parent companies to get the information from them as 
well, on governance and finances, so that we can see how 
decisions are being made that are affecting the institution, 
where the resources are going, and how those are being 
allocated.
    I think this is a good example of the fact that we are 
stepping up as accreditors when we recognize there are issues 
that we are not covering.
    Mr. Byrne. That is really not my question. You are doing 
your job. We know there are instances where it has not been 
done. I want to find the right balance here, because there is a 
tension here. Mr. Scott, I think, has done a good job of 
stating the tension.
    How do we address the balance? Dr. Pruitt, do you have a 
thought about that?
    Mr. Pruitt. Well, there are institutions that fail, and 
they should be held accountable, but the whole system shouldn't 
be changed. There are accreditors that have failed, and they 
should be held accountable, but the whole system shouldn't be 
changed.
    Mr. Byrne. How do we hold them accountable?
    Mr. Pruitt. Well, the institutions that have failed have 
lost accreditation, they've gone out of business.
    Mr. Byrne. I am talking about the accreditors.
    Mr. Pruitt. I think if they failed, they should be held 
accountable, too, and their recognition should be lost as well.
    Mr. Byrne. That would come from the U.S. Department of 
Education?
    Mr. Pruitt. Yes.
    Mr. Byrne. So, I guess the question is, Dr. McComis, this 
is something I was interested in from you, sometimes it falls 
most heavily on the sector that you deal with, how do we assess 
an accreditor? What is the basis on which we say an accreditor 
is doing its job or not doing its job?
    Mr. McComis. In this regard, there are a whole set of 
Federal regulations that we go through--
    Mr. Byrne. Yes, but are they good?
    Mr. McComis. Largely, I think, they are. Consistency would 
be one area that I would point to and the application of those. 
The National Advisory Committee on Institutional Quality and 
Integrity, NACIQI, they are working toward their own 
expectations around that, and I think those expectations are 
changing, and when we get to a point of greater consistency so 
that accreditors better understand what those expectations are.
    There currently exists Federal regulations that say 
accreditors need to have outcomes around graduation rates or 
completion rates and licensure rates, things of that nature, 
and what is the consistent application.
    The only thing that I would say with regard to that is your 
first question about can we rely upon the accreditation system, 
what is really rich about it, to Dr. Pruitt's point, is you can 
set benchmark outcome standards, and not everybody is going to 
meet that standard every single time, but what is the process 
that the institution is going through.
    That's the richness and the qualitative nature of this 
process that accreditors should be expecting and that the 
Federal Government should be expecting accreditors to partake 
with their institutions to move that quality forward.
    So, holding accreditors accountable for the way they work 
with their institutions and establish those outcome standards, 
I think, is key. Any direction and guidance that the Congress 
can give to the Department in the establishment of those 
regulations, to talk about the consistent application across 
all the creditors, would be useful.
    Mr. Byrne. My time is up. Thank you, Madam Chairwoman. I 
yield back.
    Chairwoman Foxx. Thank you. Ms. Davis, you are recognized 
for 5 minutes.
    Mrs. Davis. Thank you. Thank you very much for the panel. I 
know you all recognize the differences in our educational 
institutions today. You mentioned more for-profits, other 
apprenticeship programs, lots of different ways, I think, that 
we need to really support people when they are going through 
postsecondary and just everything that is higher ed, everything 
that is after high school, but how specifically do you think 
accreditors could be involved in reviewing and accrediting the 
apprenticeship programs, as one example, that may be different 
from other accreditations? How do we do that? How do we apply 
that differently?
    I think the other question may be, and perhaps we can learn 
from programs that are more traditional, how do we listen to 
the people that are involved in this, peer review at schools is 
something that is a good thing on many levels, but I know from 
peer reviewers, a lot of this makes them crazy, and yet they 
feel they cannot track our students well enough to really be 
able to evaluate their educational experiences as they go into 
the work world.
    How do we do that? How do we train them? Do you think there 
is a good way of doing that today?
    Mr. McComis. I'll tackle your first question about 
apprenticeships and other kinds of programs, because I 
mentioned this a little bit in my written testimony and briefly 
in the oral, and that is looking for ways for accreditors and 
for institutions to have competency-based systems supported 
through the Federal financial aid system as opposed to seat-
time measures or requirements.
    So, while there's some allowances there, I think that in 
some ways, the requirements that currently exist can serve as 
those barriers to innovation.
    My agency is very much interested in working with 
institutions that work more closely with the employment 
community, that work more closely in apprenticeship programs, 
and the question that arises is how does that fit into an 
overall educational program that can be supported for students 
with their Title IV student financial aid dollars. And so, 
where I think there's some tension that exists there in trying 
to create programs that really can support students' success.
    So, I would encourage the committee to think about ways 
that those programs can be thought about in a bit of a broader 
way.
    Mrs. Davis. Mr. Miller, do you have any thoughts about 
that?
    Mr. Miller. I want to touch on the student part of it and 
sort of the student feedback. I think there are a couple of 
challenges here. One is as we talk about students are 
increasingly older, going part-time, they're not on campuses 
much.
    So, if you go and conduct your visit during working hours, 
you may not be able to find all the students you have. They're 
busy; if you sort of say come to this room at this time and 
talk to us, you're not going to catch everyone you need to 
catch.
    Part of it is we need student feedback, not just sort of in 
the moment for people who are enrolled somewhere. We should be 
talking to people long after they've left, and seeing, you 
know, did this result in what you thought it would?
    People in the moment don't necessarily know until they 
leave. We have seen this with a lot of the troubled schools. 
They thought they were getting a good education in the moment. 
They left, tried to find a job, found out it totally didn't 
work.
    The other thing I would just say really quick here is this 
is why we have the experimental sites flexibility within the 
Higher Education Act to allow Federal aid to test out sort of 
new types of approaches.
    There is one right now that says maybe we don't need to 
have programs be 15 weeks in length to get Federal aid, because 
there may be quick training programs that are valuable.
    Unfortunately, the current Administration is terminating 
them on June 30 without much warning or any information about 
what they've learned or anything like that.
    Mrs. Davis. Thank you for that. Please, go ahead. I had 
another question to ask you as well.
    Ms. Petrisko. First, I hope everybody realizes that as far 
as the regional accreditors are concerned, we are limited in 
the types of institutions that we accredit, so degree granting 
institutions within a certain geographic scope.
    So, providers that are not degree granting providers, and 
we do recognize the world of education is bigger than degrees, 
it certainly is, but if they're not degree granting providers, 
they do not fall within the scope of what we can do.
    Could accreditors do more with different types of programs 
with expanded scopes? I believe so because the basic principles 
are what are you promising, what are you delivering, how 
sustainable is this operation?
    Mrs. Davis. Could I turn really quickly to trade schools, 
and I know my time is almost up, because I think there is a 
concern and certainly maybe it is a misperception, that when 
you strengthen accreditation standards that you harm good 
actors in these fields. You put additional burdens on them to 
show, you know, that they are following through with their 
promises.
    Do you think that is a problem? Dr. Pruitt?
    Mr. Pruitt. Yes, that's a problem.
    Mrs. Davis. How do we fix it? I think my time is up. Thank 
you.
    Chairwoman Foxx. Thank you very much. I think you touched 
on a subject we need to talk a little bit more about. Mr. 
Guthrie, you are recognized for 5 minutes.
    Mr. Guthrie. Thank you, Madam Chair. Dr. Petrisko, I am 
pleased to hear that regional accreditors have launched a 
nationwide effort to place increased emphasis on graduation 
rates as part of their ongoing reviews of colleges and 
universities.
    If you may, please provide the committee more information 
about how the graduation rate information will be used as part 
of the review process, and why did the regional accreditors 
decide to undertake this effort, and what successes have you 
seen so far?
    Ms. Petrisko. Okay. So, the last part first, why it was 
decided to do this, because there are seven different regional 
accreditors and we do things in our own ways, a lot of 
alignment, a lot of similarities and overlap, but we do things 
with definitions and things in our own ways, it became clear 
that without a national statement and a national initiative, 
that there would still be a lot of misunderstanding or lack of 
understanding of what we're doing, and that we take graduation 
rates seriously.
    So, we spent a long time thinking about how to set those 
rates, and as I said, the rates were set at about half the 
national average, and again, they are IPEDS rates, so they are 
not reflective of the full student population, but it was 
decided that going with those numbers of half the national 
average was a good starting point as a trigger to say let's go 
further now and see with the institutions that we accredit, 
which ones fall in that band, and let's go further and see are 
those data accurate. If they're not accurate, why aren't they 
accurate, let's get them accurate.
    If they are accurate, let's take a look across institutions 
of similar types and see how well are institutions doing, which 
institutions are doing better that we could learn from, and 
when institutions are not doing as well as they should be 
doing, what actions are the appropriate actions to take, not 
just to get more information, although more information is 
always good, but what are the appropriate actions to take to 
require institutions to do better.
    There's a lot that has been learned about high impact 
practices, for example, to assist students in completing and 
doing better in their work, so not just to encourage but to 
expect institutions to build on the rates once we have the 
accurate information, to make sure they are as strong as 
possible.
    Mr. Guthrie. Thank you. I want to move to another question. 
Dr. Pruitt, good to see you again. In your testimony, you 
highlight the importance of peer review as an affirmation of 
quality.
    Please discuss why you believe peer review is a crucial 
aspect of the quality assurance process even among every 
different types of institutions, and are there ways the peer 
review process can be improved?
    Mr. Pruitt. Because all professions look to be calibrated 
against the standards set by their profession, and the only way 
you can get those standards developed are by other people that 
are in your profession.
    So, if you're a surgeon, you want the College of Surgeons 
to set the standards and evaluate you on your proficiencies. 
That's pretty much true of every profession.
    So, we look to our colleagues from other institutions to 
come in and one, set the standards and the process. Standards 
are set by using the institutions that are members of the 
association. The application of those standards are done by 
peer reviewers from other institutions that understand the 
particular mission and purpose of that particular institution 
so there's no misapplication of the standards.
    At the end of the day, accreditation was formed way before 
it was a gatekeeper function, because colleges want the 
approval of others in their profession as a process for 
continuous improvement, so the peer review process is essential 
as opposed to the review of some external third party coming in 
to do a compliance measure to see how many wastebaskets you 
have or how many seats you have or how many library books or 
test tubes you have.
    So, at the core, the strength of the system is self-study 
and introspection, where you are testing yourself against 
commonly identified standards, so that you're not self-
delusional, and then external review to keep you honest against 
standards that both the reviewers and the reviewee have bought 
into as appropriate measures of quality.
    Mr. Guthrie. Thank you. Dr. McComis, because your 
organization accredits many vocational-focused schools and 
programs, you understand maybe better than some others do the 
role of education in preparing students for jobs.
    Please talk about how the ACCSC maintains a focus on 
student outcomes and how other accreditors can learn from your 
expertise, and what work are you doing to ensure that graduates 
from the institutions your agency accredits are properly 
prepared to enter the workforce with skills needed.
    Mr. McComis. Thank you. So, as I said earlier, we almost 
view it as a luxury that we work with such mission-centric 
institutions that are really focused on employment outcomes.
    For two decades, we've had quantitative standards around 
graduation rates, employment rates, and most recently we've 
added a quantitative measure for licensure rates as well.
    We've been able to collect that data.
    We've been able to use it again as a benchmark, not as a 
floor but as a benchmark to say anything that falls below this, 
we're going to begin to really ask questions around the quality 
of the institution and how you're really meeting that mission, 
and how you're really fulfilling expectations for graduates.
    The use of that information is then coupled with competency 
assessments so that we can and the institution can have some 
relative assurance that graduates that go out into the 
employment community are actually able to perform the tasks 
that they set out to do.
    So, adding those two elements together, student learning 
and competency assessment piece, so at that institution it's a 
process they have to engage in, with the quantitative measures 
and the opportunity for institutions to then provide 
qualitative responses to their own performance, we find to 
really be the indication of what sets an accreditable 
institution apart from one that's not able to meet that 
benchmark.
    Mr. Guthrie. Thank you. My time is up.
    Chairwoman Foxx. Thank you. Mr. Courtney, you are 
recognized.
    Mr. Courtney. Thank you, Madam Chairman, and thank you for 
holding this hearing. It is another example of why we need to 
do a Higher Education Reauthorization Act, because what we are 
hearing, I think, from all the witnesses is just how much 
change has happened since 2008, which is the last time Congress 
re-upped the law.
    Mr. Miller, I wanted to spend a minute just in terms of 
some of your testimony and writings in terms of alternative 
accreditation to try to deal with non-traditional sort of 
programs that are out there.
    This is kind of near and dear to Eastern Connecticut. We 
have a National Theater Institute, which is also known as The 
Eugene O'Neill Theater, it has been around for 50 years, it is 
non-profit.
    If you went there, it looks like a campus. There are 
dormitories, there are rehearsal halls, classrooms, et cetera, 
but it does not have tenured faculty because it is actors, 
writers, directors, and the term sometimes is just a semester 
stint that some of the students attend while they are there.
    However, its graduates, people who have come through there 
include Meryl Streep, Michael Douglas, Lin-Manuel Miranda did 
his first play, In the Heights, while he was at Eugene O'Neill 
Theater, John Krasinski, Jim, in The Office, that you may 
recall, Jennifer Garner.
    Again, its batting average is just outstanding, but it 
cannot get accredited. It cannot extend opportunity through 
Title IV to a lot of kids who could really turn into tomorrow's 
Broadway stars or movie stars.
    How does your sort of ideas maybe connect with programs 
like that?
    Mr. Miller. Yes, I think that's a perfect example of the 
type of thing that we think would be a good fit for an 
alternative system, basically saying, you know, this is 
something that is shorter term, it doesn't necessarily end in 
something that we recognize as much as being a clear-cut degree 
or certificate, but there's clearly value in it.
    What we would basically say is if you can show there's 
value there, if you can show that the people who enroll are 
able to complete whatever you're offering and they do okay on 
the back end in terms of we're not sort of leading them into 
financial risk and ruin, why should we care as much about all 
these other things we look at right now.
    Part of the reason we look at all those things right now is 
because we're not as confident about those outcomes on the back 
end, so we use sort of up front input checks to deal with that 
problem.
    What we're saying basically let's just look on the back end 
and see what happens. Obviously, yes, there are a range of 
outcomes that are useful to higher education beyond just did 
you pay your loans or things like that.
    We're only concerned about is this a good financial bet for 
the government. Should we invest in this, do we think it 
promotes opportunity, and when you think about it that way, you 
can sort of set aside some of the more complex things that get 
used right now in the current system as sort of proxies for 
other things.
    Mr. Courtney. Go ahead, Dr. Pruitt.
    Mr. Pruitt. Congressman, this is a wonderful opportunity to 
point out a rule that just drives me nuts; it's the credit hour 
rule.
    The credit hour rule says that accreditors are required to 
ask colleges and universities to first of all, award credits in 
credits, and then to define ``credits'' by the number of hours 
spent in a seat.
    Now, please tell me how an accreditor could apply that rule 
to the institution that you just described. It just would be 
impossible.
    So, there needs to be flexibility and communities that come 
and allow institutions like that to prosper and succeed, but it 
can't happen unless the regulatory context that accreditors 
have to function in allow it to make it happen.
    Mr. Miller. May I mention the credit hour? I think one 
thing that is important to realize here is part of the reason 
why we needed this rule was we had colleges out there that were 
inflating credit hours to get more financial aid, so we had 
schools claiming they were offering courses worth nine credits 
that did not have the amount of learning behind that.
    When you do that, students pull down more financial aid 
than they should, so they're going to exhaust their lifetime 
eligibility sooner, and we're going to pay money out to schools 
faster than we should.
    So, there is credit hours from the sense of measuring how 
much learning and things like that, and then there's credit 
hours in the sense that we want to make sure that schools 
aren't essentially taking in more money than they should, 
making it harder for students to get enough money to finish 
their whole program.
    Mr. Courtney. Thank you. Again, I think as we hopefully get 
closer to putting pen to paper in terms of a proposed bill, we 
would encourage you to continue to share with us your ideas 
about ways you can actually sort of structure it so that there 
are safeguards, but on the other hand, we are not denying kids 
who could be the next author of Hamilton the opportunity to 
learn and succeed. With that, I yield back.
    Chairwoman Foxx. Thank you, Mr. Courtney. Mr. Lewis, you 
are recognized for 5 minutes.
    Mr. Lewis. I thank the chair and thank the panel for coming 
today. A couple of questions. Let's start with a follow up to 
Dr. Pruitt on innovation.
    Right now, the accreditation process is compromised, and I 
do not want to use the term ``status quo,'' but employees or 
members of the traditional system of higher education that we 
have used for so long and so successfully.
    How do we get independence or maintain independence of 
accreditors without Federal Government micromanaging, and at 
the same time, open up the system to these new delivery methods 
we are talking about, for instance, competency-based education 
as opposed to just seat-time?
    So, on the one hand, we have a system of current 
traditional education, and on the other hand, we do not want 
any Federal intervention, but we want independence, too. How do 
we get there?
    Mr. Pruitt. You get there by focusing on the student 
learning outcomes, because these are all processes getting to a 
commonly agreed upon destination.
    The issue needs to be not how you get there or how the 
learning takes place or what form does the learning take place 
in, but does the learning take place, and can you certify it 
through some valid and reliable assessment process at the end 
so that you know the standard gets met.
    The regionals have opened up on that. It used to be that 
was a problem. If I had been here 10/15 years ago, which I 
think I probably was, I would be complaining about a rigidity 
from the accrediting community that stifles innovation.
    That has pretty much changed in the regional area. The 
problem we have now is not so much with our regional 
accreditors, but with the regulations that are coming from the 
Federal Government.
    Mr. Lewis. Can you give me an example, for instance, on the 
massive open online courses, the MOOC classes, and 
accreditation? Is there an issue there? Is there resistance 
there?
    Mr. Pruitt. Well, no, not from the accreditors. Students 
that go through those experiences can come to Thomas Edison, 
and if they're willing to go through an assessment process to 
say I went through a MOOC and I was stimulated, I learned all 
this stuff, and I want credit for that, they can come to Thomas 
Edison, and there's an assessment process you can go through, 
and if you can verify that you in fact achieved competencies 
that you would have achieved had you taken the course, you can 
get credit for that.
    We work with StraighterLine and a whole lot of other non-
traditional providers where students that acquire competencies 
through the non-traditional providers can come, and if they're 
willing to subject themselves to a valid and reliable 
assessment process, demonstrate that the learning was acquired, 
they can get credit for that.
    The key is the assessment of the learning outcome at the 
back end and not the process of how you get there.
    Mr. Lewis. Very good. I want to shift gears a little bit, 
Dr. Petrisko, and ask you a question that may be off the beaten 
path a little bit.
    The Higher Education Act requires accreditors to 
consistently apply and enforce standards that respect the 
stated mission of the institution.
    Much of this hearing and much of our work here focuses on 
the rigors of curriculum and making certain there is academic 
competence and all that.
    A crucial part of a classic liberal education is preparing 
citizenship or preparing good citizens. I have to say I am very 
concerned with what I see lately and what appears to be a very 
highly charged political environment on our Nation's campuses 
that I think is turning into a bit of a threat to free speech 
and academic freedom.
    Again, may be off the beaten path, but is that part of the 
accreditation process, to ensure that we have open and free 
dialogue?
    Ms. Petrisko. If you look at our standards for what we 
expect for an undergraduate education and for graduate 
education as well, there are certain things that are stated 
within those standards.
    In our case, five core competencies, including one which is 
critical thinking, which I think would certainly relate to what 
you're talking about.
    We have asked institutions and expect institutions to give 
us evidence of the fact that their graduates actually have 
achieved these core competencies, which are going to look 
different across institutions.
    What Cal Tech is going to do with regard to quantitative 
reasoning is going to be quite different than what a seminary 
would do, for example, the broad diversity of institutions we 
have.
    Participation in society and citizenship is something that 
we do expect from our institutions, that students get a broad 
education and part of that is being part of society and a 
peaceful society, and a society where they can have 
interaction.
    So, I do find it disturbing that there have been a number 
of cases recently where there have been issues of what's been 
perceived as restriction of free speech on campuses, and I 
understand from the campuses' perspective that there was safety 
and security concerns, which they balance.
    From an accreditation perspective, I think that's what we 
expect our institutions to do, to recognize what they exist to 
do and to do that in a way while maintaining a campus or an 
institution where people are safe and secure, so how to balance 
those. We do expect that from our institutions.
    Mr. Lewis. Thank you. My time has expired. I yield back.
    Chairwoman Foxx. Thank you, Mr. Lewis. Mr. Polis, you are 
recognized.
    Mr. Polis. Thank you, Chairwoman Foxx, and thank you to 
Ranking Member Scott for this great hearing. Accreditation is 
an issue that frankly receives too little attention for its 
importance in higher education, and we really need to make sure 
that we have an accreditation system that allows for the kind 
of innovations to create an effective 21st century higher 
education system.
    Mr. Miller, as you know, competency-based education allows 
for innovation in higher education, and credits can be awarded 
based on competency. It allows for more efficient and better 
forms of pedagogy that are not tied to seat-time requirements, 
allowing students to move faster or slower through their 
degree.
    I was pleased that in 2015, C-RAC recognized the uniqueness 
of competency-based education and announced a framework for 
approving competency programs.
    Can you share why it is important for accreditors to 
consider the distinct qualities of different types of 
education, specifically about CBE, what are some areas where 
accreditors should take a closer look?
    Mr. Miller. Sure. I think competency-based education is one 
of the most exciting things that's happening in higher 
education today because it's moving beyond the sense of did you 
just stay there long enough to eventually get a degree versus 
can you actually show that you learned things and that we're 
confident you got the knowledge you need to succeed?
    So, I think it's still obviously developing, and it's slow 
going because, obviously, every time there is new sort of 
charted areas, we're looking at that.
    I think probably the next space to look at is to think a 
little bit more about flexibility on what constitutes a 
program. So, right now, we're seeing students who maybe are 
acquiring knowledge from multiple different areas and how can 
we sort of cobble that together into something that represents 
a program.
    I don't think we should get down to the level of like 
accrediting individual courses. I think in general the return 
from any given course is probably not great enough to merit 
that. We should think about when you've got things coming from 
multiple areas--
    Mr. Polis. Does that not also allow for kind of new 
combinations of courses, even changing the definition of a 
``course'' in terms of ways of getting to a particular outcome?
    Mr. Miller. Correct. The thing you have to do to make sure 
this all works though, is you have to keep a laser like focus 
on outcomes on the back end.
    Mr. Polis. Thank you. I wanted to go to Dr. Petrisko 
quickly. As a member of C-RAC, and can you share a little bit 
about your perspective on the guidance you are working on for 
competency-based education?
    Ms. Petrisko. I'd love to talk about competency-based 
education. It is one of the areas where accreditors really are 
partnered with institutions to support the innovation that they 
have seen as important in reducing time to degree and allowing 
for flexibility and affordability.
    This is one of the areas where I hope there will be 
attention paid in the Higher Education Reauthorization Act. A 
number of accreditors, including us, have been sort of caught, 
as have the institutions, in supporting this innovation and at 
the same time, when we had an Office of the Inspector General 
coming to audit how we do this, being caught with the regular 
and substantive faculty initiated interaction.
    These programs work differently. We as accreditors make 
sure that all the things that have to be taken care of to 
ensure the quality and protect the students are done. They are 
going to be done in different ways for different programs.
    But, the Office of the Inspector General looked at this and 
said well, these programs don't have the same kind of regular 
and substantive interaction that its faculty initiated, so 
there was some back and forth on that. That's just not helpful.
    Mr. Polis. So, what we can get with competency-based is we 
care about the outcome, regardless of if you find a way to do 
it with different interactions with faculty, we care about what 
the actual outcome is rather than the inputs.
    Ms. Petrisko. Exactly.
    Mr. Polis. Back to Ben Miller, I wanted to address another 
innovation in higher education, coding boot camps and boot 
camps in other fields that relate to job related 
certifications.
    In Colorado, there are a number of boot camps like Turing 
School and Galvanize. They have great track records of placing 
students into great jobs, after completing their program, which 
are usually a few months of intensive work.
    Unfortunately, these programs are not accredited, not 
eligible for Federal aid. That means the students either have 
to take out higher cost private loans or the programs are 
limited to students who can pay for them themselves.
    I am very supportive of allowing programs to be eligible 
for Federal aid so they can serve more at-risk students, but 
only if these programs have a track record of success, and the 
transparency and accountability that comes along with it.
    Can you share your ideas on supporting innovative models 
like Turing and Galvanize, and making sure actors do not take 
advantage of flexibility, and at the same time, we give our 
more at-risk population a chance to attend these types of 
academies?
    Mr. Miller. Again, this is something that really hits on 
part of why we felt the need for an alternative system that is 
really outcomes-focused would be helpful.
    A couple of things on that. One is obviously is you keep 
track of outcomes, then you can have greater confidence that 
it's okay to sort of lend there, to ease them in. We think it's 
important that these new providers have some degree of 
financial commitment up front, so that we have some sense that 
maybe a boot camp that is only a year old actually has the 
financial capability to sustain itself, so that we don't run 
into a situation where we open up the aid programs, lend to 
people, and then being shut down overnight.
    I think the other thing is this really speaks to we need to 
think more intelligently about how we ease people into the 
system, because right now it is basically like we approve you, 
and then you're eligible for everything right away, and you can 
get as much money as you can get students.
    We should probably think about easing people in, letting 
them try it with a few students, a little bit more sustainable 
growth, that acknowledges maybe you shouldn't go from 100 to 
1,000 people overnight, and things like that.
    Mr. Polis. Thank you. I yield back the balance of my time.
    Chairwoman Foxx. Thank you very much. Mr. Smucker, you are 
recognized for 5 minutes.
    Mr. Smucker. Thank you, Madam Chair. Dr. Pruitt, I would 
like to learn a little more about the peer review process. I 
just recently met with the presidents of several local private 
colleges, and I am in Pennsylvania, and with the association 
that represents many of the private colleges. They have both 
been part of the peer review process, in evaluating other 
colleges, and have participated in their own organizations.
    By the way, they spoke very highly of the Middle States 
process. With your expertise, your experience working as an 
accreditor, and your experience in higher ed as well, how have 
your views on the peer review process changed or been shaped by 
working on both sides?
    Mr. Pruitt. Well, first, peer review is more than just peer 
review. It's peer review. Peer review has to be honed so that 
the peers that are evaluating you are peers from comparable 
institutions that really understand your institution.
    It is true that sometimes--I'm fairly aggressive about 
talking about mission differentiation, being evaluated by peers 
that share your same mission, sometimes institutions can hide 
behind that, so how do you have people that are evaluating you 
that can call on your own stuff if you're not being really 
candid and are hiding behind a broader definition of your 
mission.
    So, you have to have peers that come in, that are not only 
from other institutions, but other institutions that understand 
your kind of institution, so they know when to probe, when to 
test. They know what kind of data to look for, that if one set 
of metrics isn't the right set of metrics, what is the right 
set of metrics.
    The peer process starts with the developing of the 
standards, the development of the processes, and the 
implementation, and then to the teams that evaluate it, and 
then after the team does a report, that report goes back to the 
accrediting body and gets reviewed again by a different set of 
peers to keep some distance and objectivity.
    The other thing you'll find, and I know it from Middle 
States, and I believe it's true of the other regionals, the 
institutions that are in it overwhelmingly support it. There is 
anecdotal evidence about people that are ticked off about this 
or that process, and it's always going to be the case, but when 
you look at an objective evaluation of the data, and we 
evaluate everything, including how our institutions are 
satisfied with the process, it's overwhelmingly supported by 
our members.
    So, it works very well. It really does.
    Mr. Smucker. Thank you. You also made the comment and I 
appreciate it, that compliance is not the substitute for 
quality. You mentioned there may be compliance things that 
accreditors can look at now required by either the law or 
regulation that Congress could potentially remove in the 
reauthorization of the Higher Education Act. I would like you 
to expand on that.
    Mr. Pruitt. In my testimony, there are three that I 
suggested need to go away. The first was credit hour, for 
reasons I've already spoken to. The second is State 
authorization.
    There was earlier discussion about the triad. The triad 
does need to be strengthened, and it is reasonable that States 
should exercise licensure authority over the colleges and 
universities that operate in their States, and there are a 
number of States, unfortunately, that have no licensure and no 
oversight, and that should be changed.
    The current definition of ``State authorization'' extends 
that to online courses and even literature. That's just absurd. 
It destroys the use of technology that shortens time to 
completion, and kills innovation.
    The third one is the score card, and I'd love to talk about 
that, where the Federal Government has come up with a template 
to try to evaluate colleges and universities, and the results 
are bizarre.
    So, those are three things that I'd like to see go away 
right away.
    Mr. Smucker. Thank you.
    Chairwoman Foxx. Thank you, Mr. Smucker. Ms. Bonamici, you 
are next.
    Ms. Bonamici. Thank you very much, Chairwoman Foxx and 
Ranking Member Scott. This is an excellent discussion we are 
having this morning.
    I know like many of my colleagues I am concerned about 
institutional quality, and we have heard so much about places 
like Corinthian and ITT Tech that provide these recent examples 
of financially unsound institutions that were allowed to 
operate as accredited schools for way too long.
    I know the policy group, Third Way, just noted in a report 
issued this year that more than 130 accredited colleges and 
universities graduate fewer than 10 percent of new full-time 
students.
    I appreciate the good work that accreditors are doing, but 
there is no doubt that we should look for opportunities to work 
together so the accreditation process is really helping to make 
sure that students and families who invest in higher education 
are not taking unnecessary risks with their future.
    I think Mr. Polis left, but I wanted to follow up briefly 
on his comment about the coding boot camps. I know that many of 
them have now joined a coalition and developed a framework 
called the Council on Integrity and Results Reporting, to just 
try to get some consistency out there with what they are doing. 
That is a conversation we need to have with alternatives like 
that.
    Mr. Miller, I wanted to ask you, the Department's guidance 
from November 2016 encouraged accreditors to provide more 
information about the actions they take, and some of the 
information is made available on the Department's database of 
accredited institutions.
    So, what could the Department do to further this effort, 
and is the database useful for consumers?
    Mr. Miller. So, this is a really important first step, but 
it still has a ways to go. We actually try to look at 
accreditor actions, and before this comprehensive reporting was 
required, it was a total mishmash. You could look in some 
places and you could see things for a year, you look at others, 
they would have it for five years. The reasons why actions were 
taken were sometimes very clear, sometimes they weren't clear 
at all.
    So, getting the information is a crucial starting point. 
Unfortunately, the database now is not exactly the most user 
friendly, and I think expecting a student to actually find it 
is unlikely. You have to download a spreadsheet, and then click 
through to a link that's contained in the spreadsheet, so 
nobody is going to get it there.
    I think the starting point is the Department needs to make 
sure it's starting to use that information, too. A big part of 
that is the Obama Administration created an enforcement unit 
that was supposed to be able to conduct more investigations and 
feed in information from third parties about problems, and 
there are real concerns now about whether or not that 
enforcement unit will be continued in the current 
Administration, and whether or not it will truly be effective.
    Ms. Bonamici. I want to follow up. I know that in April 
2016, there was a letter to federally recognized accrediting 
agencies sent by then Under Secretary Ted Mitchell, outlining 
the power that accreditors have to differentiate in their 
reviews of institutions under current law.
    Do you know what steps if any you are aware of that 
accreditors have taken in response to that letter?
    Mr. Miller. I know there are many accreditors that are 
considering different differentiated processes. WASC is in the 
middle of working on one. I believe the Higher Learning 
Commission has one as well. I think that's a really important 
first step.
    It would be nice to see it go further because I think we 
should be discussing whether or not there should be 
differentiated levels of approval for Federal financial aid. 
Right now, it's so all or nothing that it makes it hard to ease 
people in, and also ease them out, and we should recognize that 
a loan is riskier for a student than a grant.
    I think it's still a little early to tell because we 
haven't seen exactly how these play out yet, and the process 
for accreditation is such a long cycle that it's hard to know, 
you know, if you do something over 10 years, we won't know 
right away.
    Ms. Bonamici. And did you want to respond to that, Dr. 
Petrisko?
    Ms. Petrisko. Well, just to note that indeed I anticipate 
that at the next Commission meeting we will approve a process 
that will allow for institutions that have very strong 
histories of clear financial sustainability, good learning 
outcomes, graduate rates, et cetera, that they would have a 
reduced burden as far as visit and as far as reporting is 
concerned.
    Ms. Bonamici. Thank you. Mr. Miller, in 2014, the GAO 
report found that the Department of Education does not 
consistently use accreditor sanction information for oversight. 
After that, the Department agreed to develop better internal 
information sharing systems to enable its analysts to use the 
information about sanctions from accreditors to inform the 
Department's oversight.
    Do you know if this change has been effective, and what 
more can the Department be doing to align oversight and 
enforcement responsibilities?
    Mr. Miller. So, there hasn't been a ton of public 
information to judge the effectiveness of this. We do know that 
last fall one of the reasons why the Department decided to take 
action against ITT Technical Institute was because of some 
concerns that came from the accreditor.
    It is possible that some of the actions against Corinthian 
may have started with accreditors raising concerns about the 
accuracy of job placement rates, but the Department has not 
been completely transparent on it, and again, if the Department 
does not have the people in place who are really taking a 
critical eye to looking at the information coming in from 
accreditors, it will be for naught.
    Ms. Bonamici. Thank you. As I yield back, I want to 
recognize Madison, who is here today shadowing me with Girls, 
Inc. She is a junior in high school, and I hope she found this 
conversation helpful. Thank you, Madam Chair.
    Chairwoman Foxx. Thank you, Ms. Bonamici, and Madison, we 
are very glad to have you with us today. Mr. Walberg, you are 
recognized for 5 minutes.
    Mr. Walberg. Thank you, Madam Chair. Thank you to the 
panel. I think it has been a very helpful panel today.
    Before I ask my questions, Dr. Pruitt, thank you for 
helping us to understand very clearly that unless we ask the 
right question, we will not get the right answer. Thank you for 
the part you play in really stimulating us to think in new 
directions, think what works in the present world, not what 
worked well in the past, that is fine, and because of what you 
and others are doing, I think both Princeton, University of 
Michigan, in my case, Michigan State, will be better and will 
not rest on laurels because of the competition of new ideas 
that entities like your own bring about, so thank you.
    Dr. Petrisko, past actions by regional accreditors have 
raised concerned that some agencies may be acting 
inconsistently with the HEA's requirement that accreditors, and 
I quote, ``Consistently apply and enforce standards that 
respect the stated mission of the institution of higher 
education, including religious missions.''
    I am of the opinion that there may not be a war on, but 
certainly a battle taking place in society today against some 
traditional missions, religious values, First Amendment 
liberties, that are not good in continuing freedom in this 
country.
    Certainly, in academia, there ought to be a high priority 
in saying while we may not agree with you, your mission 
statement is extremely important for what you are providing for 
your students.
    Can you discuss how your agency makes accreditation 
decisions in light of institutional missions, and particularly 
religious missions?
    Ms. Petrisko. I think it is probably going to be surprising 
to some that about 40 percent of our institutions are actually 
faith-based institutions in the WASC region.
    Mr. Walberg. A lot of them are feeling put upon. I mean 
across the Nation.
    Ms. Petrisko. Yes, I understand. We absolutely do respect 
mission, and we understand when institutions make decisions and 
set goals and set their curricular objectives, et cetera, in 
line with their mission, that is to be respected.
    There have been cases where there have been internal 
struggles at institutions amongst faculty about evolution, for 
example, and how to deal with that, what should be taught, what 
may be taught, what may not be taught.
    We have watched those things closely, but ultimately it is 
our position that the institutions must allow for that sort of 
discussion with integrity and honesty while supporting its 
mission, so not to forbid the conversation but to put forward 
the tenets of the faith as they see that, but allow that to be 
discussed.
    Mr. Walberg. Or to change the mission.
    Ms. Petrisko. Pardon?
    Mr. Walberg. Or to change the mission also, is that your 
position, you are not there to change the mission of that 
particular institution.
    Ms. Petrisko. We are not there to change a mission, 
absolutely not. Sometimes institutions themselves on who they 
want to serve and how they want to serve them will amend their 
own missions, but that's not our job.
    Mr. Walberg. Thank you. Dr. McComis, how does your agency 
determine and set standards for your institutions and what they 
are required to meet, and secondly, how do you and other 
accreditors update your standards to ensure progress?
    Mr. McComis. Well, again, that is all done within the peer 
review foundation and establishment for the agency. So, it's 
really looking at what are the best practices in a particular 
area, and then utilizing those in such a way that they promote 
quality, that they promote an opportunity to assess how well an 
institution meets those standards, and then going back and 
evaluating ourselves for whether or not those standards 
actually do what they intended.
    So, again, it's a process whereby experts/peers come 
together, say these are the practices we want to hold ourselves 
and our fellow institutions to, and then creating a process by 
which assessment can be done for an institution's adherence to 
and promotion of those best practices.
    Mr. Walberg. Thank you. I yield back.
    Chairwoman Foxx. Thank you, Mr. Walberg. Mr. Takano, you 
are recognized for 5 minutes.
    Mr. Takano. Thank you, Madam Chair. As has already been 
mentioned, last year, the National Advisory Council for 
Institutional Quality and Integrity recommended that the 
Department of Education withdraw its recognition of the 
Accrediting Council for Independent Colleges and Schools, 
otherwise known as ACICS, which the Department did last year.
    ACICS accredited over 200 for-profit institutions with over 
800 locations, including several very large online for-profit 
networks, notably ITT Technical Institute, which shut down in 
September 2016. They also accredited Corinthian Colleges before 
the school shut down two years ago today.
    The abrupt closures of ITT Technical Institute and 
Corinthian Colleges left thousands of students burdened by 
loans for degrees they did not complete. This especially 
impacted student veterans who lost their post-9/11 G.I. Bill 
benefits, because they were unable to complete their courses or 
gain transfer credits.
    I do not believe accreditors should be--I do believe 
accreditors should be in the business of protecting students, 
and ACICS in this case clearly was not protecting the students.
    My question first is for Mr. Miller, and anyone else who 
would like to chime in. Mr. Miller, the Obama Administration 
took steps to strengthen accreditation standards, but what more 
could be done to ensure that bad actors in the for-profit 
industry are held accountable?
    Mr. Miller. So, within accreditation, part of it really 
needs to be looking more at the outcomes of accreditors and the 
quality of their standards when they come before review. 
Unfortunately, the current process of reviewing standards tends 
to mostly be around do you have something that credibly fills a 
requirement in law, not is that requirement any good.
    For example, one of the things we saw with ACICS was it was 
able to persist with weaker outcomes measures than other 
national accreditors because it had something that filled the 
box that just said there's an outcomes measure there.
    The second thing is we need to make sure the rules that are 
in place right now are enforced, so we need to ensure that if a 
school has--I'm sorry, a vocational program has too high debt 
relative to the earnings of its graduates, that it is held 
accountable for that, because we need to make sure they are 
sort of moved out of there.
    The other big thing is we don't pay enough attention to the 
possibility of failure and what might happen there, so one is 
the Department of Education is not nearly aggressive enough in 
demanding financial commitments from large schools that might 
go under. As a result, when schools close, taxpayers have to 
foot the bill and students are out of luck.
    And, the second thing is the teach-out plan provisions are 
not strongly enough verified, essentially. When you have these 
large operators, you need to make sure that the plan for what 
happens if it closes is actually a real plan and not a piece of 
paper, so when you've got a place like Corinthian that shuts 
down overnight, if you just have a plan and no one has actually 
tested to see if the school that supposedly will take students 
actually will, then you are putting yourself at a real risk 
that you might be caught unaware and have serious trouble.
    Mr. Takano. Well, the Obama Administration also finally 
issued the gainful employment rule. In your estimation, does 
this rule help accreditors ensure that institutions are best 
serving students?
    Mr. Miller. I think it absolutely does. First of all, it 
puts out there numbers that we never saw before about the 
actual earnings of graduates, which is a very important 
outcomes measure that we didn't have before.
    I think it could go further. The biggest risk is it doesn't 
look enough at how many students are actually finishing, so 
it's only focused on graduates, so essentially if a program 
enrolls 1,000 people, 10 make it through, it may look okay on 
gainful employment even though there are a host of other 
problems that aren't captured there.
    It should be providing a wealth of additional information 
for accreditors and giving them cover because something else is 
going to step in and remove a problematic actor so they might 
not have to.
    Mr. Takano. Dr. Petrisko, you look like you want to say 
something.
    Ms. Petrisko. I did want to say something about Corinthian 
and ITT, just to remind everyone that accreditors do not 
accredit the parent company of these institutions. We accredit 
the institutions.
    We have learned from the past failures that we must have 
the information from the parent that is going to affect those 
institutions.
    What was also the case with regard to Corinthian was the 
Department of Education had information that we did not have as 
accreditors, so there's an issue about who has what information 
at the State level, the Federal level, and the accreditors, how 
is that information shared appropriately, may it be shared, 
what can be shared, so that any of the players in that triad 
have a good foundation for the actions that they take.
    Mr. Takano. I do not have enough time to get an answer, but 
I do want to put the question out there and maybe take it for 
the record.
    I am interested in the programmatic accreditors and what I 
see as possible inflation or credential inflation. I am 
thinking of community colleges who used to be able to offer 
physician assistance programs, those programs are now requiring 
Master's level work, and also the movement towards the 
bachelor's of nursing degree.
    I realize there is interplay with industry here, but I want 
to be able to get reactions from some of you about whether or 
not you believe there is inflation of credentials.
    I yield back. I am sorry for going over my time, Madam 
Chair.
    Chairwoman Foxx. Thank you, Mr. Takano. Dr. Roe, you are 
recognized.
    Mr. Roe. Thank you. Thank you all for being here, and thank 
you, Madam Chairwoman and Ranking Member Scott.
    Obviously, the idea in Tennessee, we are very committed to 
education and training our people, community college is free in 
our State to residents there, and we have a Drive to 55, where 
you can go to either a Tennessee college or applied technology 
and get a certificate or a degree, and we found that in those 
particular schools, 90 percent secure a job upon graduation in 
their field, whether it is nursing assistant or phlebotomist, 
whatever it may be.
    I was 18 years old when I started college. I did not have a 
clue what I was going to do. Vietnam war focused that pretty 
quickly for me. I decided I was going to do something in 
college.
    Dr. Pruitt, your students are different, and there are 
people I see every day in my community who have lost their jobs 
or whatever and are going back while they are working to try to 
get some skills so they can take care of their families.
    I applaud you for what you are doing at your university. I 
think it is incredibly valuable.
    I guess for the accreditation part, once I figured out what 
I was going to do, could my college get me into medical school. 
That is what I was interested in. If I could pass the courses, 
could I then pass exams. I had a plan. It could. I did not know 
whether it had an accreditation or not, but it provided those 
assets and benefits for me as a student because I had an idea 
about what I wanted to do.
    I think in doing the accreditation, I watch it in medicine 
today, how you measure success, how is that done, and then how 
do you define it. I think defining it could be graduation 
rates, it can be certificates, it can be a lot of things. I 
think that definition needs to be broadened, and certainly, how 
do you simplify the reporting.
    I will give you an example, a 2015 Vanderbilt report on the 
cost of regulations in higher education estimated that the 
accreditation costs of compliance was $3.4 billion a year for 
regional accreditation.
    Does that actually bring value to me because I know who is 
paying for it, the students. I have written a lot of checks to 
colleges for my kids to go to school.
    It is not nearly as affordable as it used to be, so does it 
really bring value. I want to stop and just ask these three 
questions quickly, and I will let you take the rest of the 
time.
    What are the regulations that are preventing accreditors 
from focusing on student outcomes? Number one.
    Number two, are there duplicative data collection 
requirements the Education Department makes on accreditors and 
schools?
    Number three, how can innovation in accrediting be 
encouraged?
    Those three, any of you can take off on any of them. I will 
pick on you, Dr. Pruitt.
    Mr. Pruitt. Well, there's a long answer to that. There are 
a lot of things that need to be changed. I think how you define 
``success'' is relative, and that's also very important. I 
certainly think if you go to a school, either a professional 
school or a graduate school or proprietary school that is 
preparing you for a profession, you ought to expect that if you 
meet the requirements of the institution, that you ought to be 
able to pass the licensure exams to participate in the 
profession.
    If you go to medical school, they have like a 98 percent 
pass rate. If you go to medical school and graduate from 
medical school, you're not worried about whether you're going 
to pass the exam to participate in your profession.
    Mr. Roe. Actually, yes, I was worried, but I did pass it.
    Mr. Pruitt. I'm going to take a risk because my data is 
about nine years old, but when I was on NICIQI, I had a real 
problem with the bar association because law schools are very 
selective and very expensive, but the national pass rate from 
accredited institutions, law school, was around 70 percent. In 
some cases, it was lower than that. John Kennedy graduated from 
Harvard and couldn't pass the bar exam. There is something 
wrong with that.
    If you're going to a school to be a nurse or a teacher, you 
ought to be able to pass your licensure exam. Your ability to 
participate in the profession that you're going into ought to 
be a factor in accreditation in terms of being able to value 
the accreditation that you get.
    The regulatory environment takes good ideas. The rules that 
I'm complaining about, in their concept, they make sense. I 
think gainful employment in its concept makes sense, but the 
way it got operationalized doesn't make sense.
    If you look at the list of bad actors under gainful 
employment, Harvard is on that list. So, the challenges, how 
you take something conceptually sound, the rules that we have 
to execute make no sense.
    There needs to be a reengagement between the regulators and 
the community, and we used to have that. We lost that. That 
reengagement needs to happen again so we can take the good 
ideas, work through the consequences and operationalize in a 
way that satisfies the public interest and also meets the needs 
of the professions.
    Mr. Roe. Thank you. I yield back. Thank you very much.
    Chairwoman Foxx. Perhaps the witnesses would be willing to 
give Dr. Roe answers to his questions in writing. That would 
certainly be very helpful.
    Ms. Adams, you are recognized.
    Ms. Adams. Thank you, Madam Chair. Thank you, Ranking 
Member Scott. Thank you to all the witnesses for being here. 
Dr. Pruitt, good to see you again.
    Mr. Miller, how was the Department's decision to publish 
accreditor's standards for evaluating student outcomes improve 
the accreditation system, and could this be constituted as an 
overreach?
    Mr. Miller. I don't think it is. I mean basically what the 
Department of Education did was went on the websites of all 
accreditors that already make their standards public and 
essentially put them all in one place. I think it's more of a 
useful starting point in the conversation because you can start 
to see how things vary and understand maybe there's a good 
reason why something varies, but also start to raise questions 
about why is it that a branch of one publicly traded for-profit 
college has to hit a 70 percent placement rate at say ACCSC, 
and maybe only needs to hit 60 percent at a different 
accreditor.
    So, I think it's a good starting point to start to ask why 
do things vary and where is the right line between consistency 
versus variation?
    Ms. Adams. Thank you. In your testimony, Mr. Miller, you 
mentioned that one way to improve student outcomes through the 
accreditation process is to increase Federal minimum 
requirements for student financial aid.
    Would you explain what the current student loan performance 
metrics are, and how you would recommend that Congress 
strengthen these metrics?
    Mr. Miller. I mean, the big problem we have right now is 
the only real measure of student loan performance we use is 
what's called the cohort default rate, which essentially asks 
what percentage of borrowers default within three years of 
leaving school. The problem is right now it's just a cliff. So, 
essentially if you're nowhere near that 30 percent rate, you 
don't have to worry, and functionally basically nobody fails 
this.
    So, in the most recent data, I believe it was 10 schools 
that had about 600 and some odd borrowers total--sorry, 
borrowers in default total, that failed that test. So, 99 and 
some odd percent of schools and borrowers aren't affected by 
this rule.
    So, I think the big thing we need to think about is 
measuring other problematic loan outcomes that aren't captured 
now, particularly people who can't repay their loans, because 
one of the problems we're seeing is students maybe aren't 
defaulting, but they're not making any progress actually 
getting rid of their debt, and the only other fix we have 
available to those people is we say to them in 20 years, 
basically half your working lifetime, if you do the right 
things and keep up with all this paperwork and stuff, we'll 
forgive your loan, and that's a long time to make people wait 
if they have borrowed a loan that's not helping them.
    Ms. Adams. So, what steps could the Department of Education 
take right now to encourage accreditors to begin working with 
an institution before it has to close and students have to look 
for a new school?
    Mr. Miller. So, I think one is really trying to take a more 
risk-based approach to say, you know, we have some schools here 
that maybe they only have 100 students, so if they close, the 
risk and the complexity is not that high, but once we get 
schools that have thousands and tens of thousands of students, 
we should say what are the plans in place in case these things 
go under?
    It is almost actually some of the same conversations we had 
around the big banks, like are we stress testing schools to 
make sure they are sound, do we have a plan in place in case 
they fail, and are we actually testing that plan?
    So, are we calling those schools listed on that teach-out 
plan to see how many would you actually take, and will you 
actually take them? Are we making sure that the places that are 
on that teach out plan actually have good results, and we're 
not going to basically kick students from one school that had a 
bunch of bad outcomes to another that also got a ton of 
challenges as well, and actually make sure we are thinking 
about what happened and we are taking risk into account.
    You know, a place that gets $1 billion in Federal financial 
aid is a much bigger risk to taxpayers and to students than one 
that might get $500,000 in Federal aid.
    Ms. Adams. Thank you very much. I spent 40 years teaching 
on the college campus in Greensboro, North Carolina, been 
through many, many accreditations. I have learned a lot here 
today, and I thank you very much, Madam Chairman, and I yield 
my time back.
    Chairwoman Foxx. Thank you very much. Mr. Allen, you are 
recognized for 5 minutes.
    Mr. Allen. Thank you, Chairwoman, and thank you so much for 
your insight today as far as the college level. Dr. Pruitt, I 
am particularly interested in what you are doing at Thomas 
Edison State University based on your testimony.
    I called all of our school superintendents or met with them 
while we were in the District, just to find out about the 
school year, how it is going, graduation rates, that sort of 
thing.
    The highest graduation rate we have is in a rural county. I 
said how are you doing this. He said well, we are actually 
teaching the children to get an education, to get a job first. 
We are also giving them the skills that if they want to go to 
college, they can do that, too, rather than the other way 
around. In other words, rather than teaching students to go to 
college, we are teaching them the reason they are getting an 
education is to get a job.
    It sounds like based on your student population that most 
of your students have careers or what not, and are now saying 
you know, I want to learn more to move up the career track.
    I know even with my own children, they entered college on 
one track and said well, I do not know if that is what I want 
to do, so they are kind of back and forth. They had worked in 
our business, but that was kind of all they had done. Well, I 
think I want to do this.
    We are spending a lot of money on education. Of course, I 
hear, too, that the career tracks are very successful as far as 
graduation rates. In other words, if you can get young people 
to understand kind of where they want to be in life early, they 
just get on that track and they are energized and motivated, 
and that sort of thing.
    Tell me how that is working, and I want to ask the 
accreditors, do you look at that as far as accreditation. Go 
ahead, Dr. Pruitt.
    Mr. Pruitt. Most people ask- see our student body, they 
want to know why are your students there, because they are 
older, most of them are all working. They are very diverse in 
their characteristics. We have students that are 25. We have 
had a graduate that was 92.
    When you ask them why are you here, it's one thing that 
comes back; it's unfinished business. They started college--
pretty much 90 percent of our graduates come to us with 
previous college. They started college and life got in the way, 
or they weren't ready, or there were financial issues.
    There weren't institutions like ours around that could 
accommodate them. So, it was an unfilled life objective, and 
that's who most of our students are. They are self-directed, 
they are well motivated, they are there because they want to be 
there, and they have powerful outcomes.
    I've given you the data. A lot of that is because of them, 
because they are self-directed goal oriented. They are there 
because they want to be there. Most of them are paying their 
own way, so they take the experience very seriously.
    But you raised a really good question. We have to not over 
simplify things. To ask an 18-year-old to know what they are 
going to do for the rest of their life is not wise. Most 18 
year old's don't have a clue. Only 22 percent of the people in 
this country are in professions related to their undergraduate 
major. Seventy-eight percent of us are in areas that had 
nothing to do with our undergraduate major.
    I think higher education ought to be accessible and an 
opportunity for everyone, but that doesn't mean everyone needs 
to go to colleges and universities.
    You could make a good case in terms of economic benefit--
Mr. McComis' graduates outperformed teachers, nurses, doctors, 
lawyers. I know I am paying a lot of money to a diesel mechanic 
right now.
    The issue is--I don't want to get too preachy, but if you 
go back to Thomas Jefferson, Jefferson said, and I'm 
paraphrasing, but basically the future of the country is 
dependent upon the quality of the human capital, of our people, 
and education is the vehicle developing that human capital.
    So, the issue is if you create and build the capacity of an 
educated person, let them have choices and options about how 
they want to pursue and develop their life, be it higher 
education, be it vocational, technical training, and have them 
prepared to be able to make those choices, the country will be 
okay.
    Mr. Allen. That gets back to accreditation. I think in some 
colleges, they are misleading these young people. Did you have 
a comment on that?
    Ms. Petrisko. I just wanted to say there are many paths 
through life, many paths to and through education. Some 
students will know when they are six years old what they want 
to do and what they want to be and they follow that through 
forever. Others don't know, change their minds, change careers, 
find the wrong institution, et cetera.
    I think accreditors absolutely recognize the diversity, we 
recognize the diversity of institutions, we recognize the 
diversity of students. I don't think institutions mislead 
students. I think institutions provide opportunities for 
students to figure out what they want to do and how they want 
to get there, and provide the support to do that. They don't 
force them. They support them.
    Mr. Allen. I think we could do a better job. As usual, I am 
over time. I yield back.
    Chairwoman Foxx. Ms. Blunt Rochester, you are recognized.
    Ms. Blunt Rochester. Thank you, Madam Chairwoman and 
Ranking Member Scott. I want to thank the panel. This has been 
a really great conversation, the questions, across the aisle. 
It's been incredible.
    When I think of accreditation, I think of not just the 
institution but I think of parents, as a parent of college 
students, I think of the students. I think of employers. There 
are so many pieces to this.
    I stepped out of the room for a moment because Delaware's 
Teacher of the Year, Wendy Turner, is here, and she actually 
started her career as a teacher later in life, so it was a 
career change.
    My question touches on Congresswoman Bonamici and 
Congressman Polis' comments about the boot camps. In Delaware, 
we actually have a great program. It is called Zip Code 
Wilmington. It is a non-profit. It is a 90-day intensive 
software development boot camp. It was developed both with the 
employer community, both local and nationally. It actually is 
in partnership with Wilmington University and participated in 
the U.S. Department of Education's Educational Quality Through 
Innovative Partnerships, or EQUIP Program.
    The great thing about it is there are Pell eligible 
students that get to participate in it. I guess my question is 
for Mr. Miller but others can answer as well, about these kinds 
of programs that are unique. It is a partnership between a non-
accredited program, teaching entity, and an accredited 
university. They even can get college credits and go on to get 
a Master's degree or Bachelor's degree. The success rate is 
incredible.
    How should we evaluate the success of programs like these 
that partner career training programs with accredited 
institutions?
    Mr. Miller. I think fortunately because these are short 
term programs and they have very clear discernable goals, you 
really start with the question of are people finishing them and 
what is happening to them after they finish.
    We just want to make sure, you know, are most people 
walking in the door graduating, and then are they able to get 
jobs and sort of sustain themselves.
    I think the trick here is we should ask that question not 
just three weeks after they leave, but try to look at it over 
time, too, so we can see is this really worthwhile, is it 
working, et cetera, and that we need a process in place to sort 
of verify if those outcomes are true.
    I think this is also a good example of where we should be 
experimenting more. I mean there is flexibility in the Higher 
Education Act around trying out sort of new methods, new 
models, et cetera, and EQUIP is a perfect example of it.
    And I think this safe space for Innovation with flexibility 
that says, you know, you're a good actor, you have good 
outcomes, we're going to trust you a little bit more to try 
something new, is how we should approach it. Unfortunately, 
what we have done in the past, we sort of tried something, we 
think it kind of works, and we blow the doors open to 
everybody, so your first 15 actors are great, your next 15 are 
so-so, and then your final 15 after that are bad, and you sort 
of ruin the model for the good actors because the bad ones have 
come in and sort of exploited it.
    Ms. Blunt Rochester. Quickly, are there any concerns that 
you have about programs like this?
    Mr. Miller. I mean I think the only major concerns is just 
that they are pretty new, so we just don't have a great sense 
as to what the long term outcomes look like, and we don't have 
a great sense of their financial stability.
    The other thing I would just say is some of the other boot 
camps got started really sort of educating people who often 
already had a Bachelor's degree and maybe had a couple of years 
of work experience, so you probably are looking at changing the 
population in some of these places, and I think we just want to 
make sure that they are figuring out how to serve people who 
might be slightly different learners than the ones they had at 
first, and their model is also working for them, or if it's 
not, they are adapting it accordingly, and they're not sort of 
saying this worked over here, let's try to do something with 
completely different people and just assume it will work.
    Ms. Blunt Rochester. Anyone else? If not, I just want to 
say you guys, this was a great panel. Thanks, Dr. Pruitt, for 
the history and the preaching, too. That was good.
    Mr. McComis. We have had some experience. We have had some 
interest and inquiry from some coding boot camps. We have also 
received some cautionary tales from some other States, not as 
successful as Delaware, in this particular regard.
    So, on one hand, accreditors do serve a risk aversion role 
and a protection role. So, finding the right balance between 
those new entrants, those new providers, how to bring them into 
the system, I think as Mr. Miller said, slowly and with some 
eye towards potential success without having a whole lot of 
past success to rely upon, which is really what accreditors use 
now in making their assessments about who gets into the process 
and who gets to go to the next step.
    Ms. Blunt Rochester. Thank you. I yield back my time.
    Chairwoman Foxx. Thank you very much. Mr. Grothman?
    Mr. Grothman. Great. A general question. This can be for 
any of you. I do not believe we have touched on this, because 
there are criticisms of the accreditation programs in a variety 
of areas.
    I have heard some evidence in which people feel there are 
arbitrary standards and universities sometimes have to spend 
money on things that may be unrelated to the actual development 
of the student.
    Can any of you comment on that or think of any anecdotes 
that would apply to?
    Mr. Pruitt. You know, one of the things that Middle States 
did through its last process was to listen to its critics. We 
invited critics from all over the country to talk to us. We 
took our standards and threw them in the wastebasket, and we 
started all over again and completely redid them.
    Most of the criticisms we got came from the things that we 
were forced to do because of the compliance issues of the 
Department. So, on the new standards, we bifurcated them. We 
basically said here are the things that we don't think are 
particularly useful, and you know, you don't think are 
particularly useful, but we have to do them because we're 
required to do them.
    Here is the quality assurance piece that your peers have 
put together that says these are the things we think you have 
to do to meet our qualitative standards.
    Probably 90 percent of the problems that we had were from 
people that were concerned about the compliance side of the 
house, which we had no control over, and once we separated 
them, it had a remarkable outcome on the buy-in we got from our 
500 and so institutions on the assessment side, because they 
saw their community was really looking at the right things.
    Mr. Grothman. Can you think of examples of things that 
universities had to do in the past that you felt cost them 
money but had nothing to do with quality of education?
    Mr. Pruitt. If you go back a little bit, accreditation was 
an input-based system, how many books did you have in the 
library, what was the square footage ratio, what were the 
student/faculty ratios.
    A lot of things that weren't necessarily tied directly to 
learning outcomes. That has pretty much changed, and certainly 
with the regionals, that's gone. That is really not the case 
anymore.
    There are still compliance costs we have in terms of the 
reporting, the data requirements. I have four people at my 
institution that do nothing but collect data to fill out forms 
to report information that doesn't get used very well.
    My colleague here talked about the IPEDS stuff, they 
exclude my whole student body, the reporting requirements and 
financial aid, we have to notify the Department every time a 
student drops a course. We start a semester every month. We 
don't operate on the traditional calendar.
    The complexity of just trying to keep up with the reporting 
requirements is very costly and expensive. I understand why the 
Department wants to know about student engagement behavior, 
because they want to know if you change your eligibility, they 
want the financial aid cut off, so I get why it is coming, but 
the burden of complying with it is enormous.
    The overhead costs of managing Federal programs in some 
cases is not worth having the programs.
    I could give you a lot of details on that, but that's--
    Mr. Grothman. Maybe one more quick thing. I think there is 
to a certain extent a trend towards MOOCs, these big huge 
courses. I think a lot of time those courses, at least common 
sense would tell you, are superior to the courses being offered 
in the traditional fashion, better professors, way better 
professors.
    Could you comment on if you feel there are any unfair 
barriers to students using MOOCs more, and just in general, do 
you feel they are to become a bigger, bigger share of our 
education?
    Ms. Petrisko. I'd like to answer that. I'm going to try to 
tie two things together here, and that is what is restricting 
in regard to innovation and these other kinds of things.
    One of the things that is currently a requirement for 
accreditors is that if anything is considered to be a 
substantive change at an institution, something really 
different than what they've done before, it must go through 
accreditor's review and approval to be able to be eligible for 
Federal financial aid.
    There is not a lot of flexibility. There are some very 
clear and defined things that we must review, although 
education has gone beyond these things as being actually 
substantive changes in the institutions.
    That costs institutions time and money. For some things 
like the MOOCs, for example, some other things that might be 
new that are very innovative and effective, we still have to 
approve them.
    We would like to have the flexibility as accreditors to 
determine what really does count as something that is 
substantive that we need to review, and where knowing the 
institution inside and out as we often do, where the 
flexibility can be granted to the institutions to go ahead and 
do that without that cost and burden.
    Mr. Grothman. Thank you very much.
    Chairwoman Foxx. Thank you, Mr. Grothman. Mr. Mitchell, you 
are recognized for 5 minutes.
    Mr. Mitchell. Thank you, Madam Chair, and thank you to all 
of you, and for your dedication to addressing this issue.
    I spent 35 years in postsecondary education with a private 
career school group, in fact, sat on an accrediting commission, 
not one of those discussed today, let's put it that way.
    Dr. Pruitt, I absolutely agree- your comment about 
accrediting agencies existed long before it got tied into Title 
IV. I think it reflects the need to address the world of 
accreditation. As we talk about the Higher Education Act, we 
need to start with what should the role of the accrediting 
agencies be. They have evolved into being a regulatory agency, 
a gatekeeper, which makes it a tremendously distorted approach. 
I saw it in my career, I saw it on the accrediting commission.
    We have to recognize that the failures that we see in 
accreditation simply reflect the failures in postsecondary 
education and in all sectors, not just the for-profit sector, 
but in fact in the non-profit and public sector.
    There is a direct link between--at least an indicated link 
between graduation rates and default rates, yet some groups 
argue that we cannot measure graduation rates or we should not 
measure graduation rates, but only 55 percent of freshmen in 
2010 now possess a degree or certificate as of 2016. We know 
what the likelihood is, they are more likely to default.
    Rather than set up another oversight--I have forgotten what 
Mr. Miller called it, the quality assurance group, another 
regulatory burden, why is it we do not create a mechanism to 
provide consumers information, valid information, so they can 
assess the value of education to their future career. What is 
so hard about doing that and putting out that information so 
that families, citizens, and taxpayers can see what they are 
getting for their money. Yet, we seem to struggle with that.
    Dr. Petrisko, enlighten me what we do to get there, because 
I think consumers desperately need that to understand the 
burdens they are taking on. Maybe Dr. Pruitt, you may want to 
weigh in, too. Please.
    Ms. Petrisko. So, one of the things that we do requires 
that all of our institutions make public on their website what 
their student learning outcomes are. Then you go to our 
website, and there is a page for every institution that we 
accredit and outcomes, and there is a link where you can go 
directly from our site--
    Mr. Mitchell. Let me stop you, you know and I know from my 
experience with Michigan State University, there is a 
significant difference between the outcome of the nursing 
program and the architecture program. It has a fundamental 
impact on if people knew that, whether or not they would choose 
to invest in it.
    Let's be honest, investment in any institution here is 
based on what is the likely outcome, whether they are going to 
be successful.
    What is so hard about drilling down on that data, provide 
that to consumers and families?
    Ms. Petrisko. Well, what we do as an accreditor, and 
perhaps you can comment on whether you think this would be a 
good thing to put out to the public, what we require as an 
accreditor is that every institution provide us at the time of 
reaffirmation, at a mid-cycle review, getting us updated, what 
their learning goals are, evidence those goals have been 
achieved, who is measuring them, what they're doing about it, 
and when their program reviews are.
    We do that at the institutional level, we do that for 
general education, we do that for every single program.
    One of our large campuses at the University of California 
has 580 programs, so we do ask that for 580 programs. That can 
be drilled down even further. I think it's a question about how 
to present that kind of information at that level in that much 
detail to the public.
    Mr. Mitchell. You may not want to go with 580 programs, do 
it by college. You did not indicate employment rates in terms 
of the metrics you're talking about. Maybe they are in there 
and I do not know.
    Ultimately, most of the students that go through your 
institutions went through ours. They came there to 
theoretically get the skills to go to work. Ultimately, to pay 
their loan back hopefully.
    Why are we not reporting that in most institutions other 
than private and for-profit? Why do we not gather that 
information and report it by program? Dr. Pruitt, do you have a 
comment?
    Mr. Pruitt. I think the key is with a lot of the data is 
what is the reasonable expectation of the program. If you're 
coming to a program, if you want to be an architect, if you 
want to be a nurse, if you want to be a teacher, it's 
reasonable to say what is the performance of our graduates in 
these areas?
    If you're coming in a program where there is no expected 
definable employment outcome, you are just coming there to be 
educated to increase your own capacity, it's harder to do.
    I do think we should and many of us do, if you look at our 
websites, you will see that kind of information, and most of us 
like to put it up there because we like to brag about it. The 
stuff I told you this morning about us, because we wanted to 
brag about it. If it wasn't good, I probably wouldn't have told 
you about it. We want to do that.
    The issue is the system is very complex, so the challenge 
is how do you come up with useful data that reinforces and 
gives you incredible information on which to make an informed 
judgment in the programs where you need that information to 
decide, and that varies by program by program, by institution 
by institution.
    Mr. Mitchell. One of the things I would like to talk to you 
further about is the comment you made about the intended 
outcome. I guess one of the questions is ultimately it is 
taxpayer money being invested in the education of adults, 
helping them vocationally. Is it wise to use taxpayer money for 
general education from Federal financial aid. I think it is a 
question we need to address and goes to some of your concerns. 
What are we investing in both as taxpayers, through Pell 
grants, Title IV, and through State agencies. It is a huge 
amount of money.
    Mr. Pruitt. I'd love to finish that conversation with you. 
That's a long one.
    Mr. Mitchell. We are out of time and the chair has been 
patient with me, so thank you for your feedback. Thank you.
    Chairwoman Foxx. You have been very patient, too, today. I 
want to thank our witnesses again for taking the time to 
testify before the committee today.
    I think from the comments you have heard from all the 
members, they have benefitted a great deal from your testimony 
and from this event.
    I do not think people's comments were just perfunctory. I 
think they really mean that, and I certainly mean it from my 
perspective.
    I would like to now recognize Ranking Member Scott for his 
closing comments.
    Mr. Scott. Thank you, Madam Chair. This has been a great 
hearing. We got a lot of good information, and it appears 
accreditors can identify those institutions of higher learning 
that should be eligible or ineligible to participate in the 
Federal student financial aid programs, as well as providing 
important information that students should have when deciding 
how to assess the right postsecondary education program.
    The fact that some institutions maintain accreditation 
right up to the day they collapse is evidence that more needs 
to be done. The Federal Government has $150 billion a year 
interest in getting this right.
    So either the accrediting agencies, who should be in the 
best position to judge the quality of education, must credibly 
make the assessments, or the Federal Government will have to 
figure something out that is both fair and workable.
    Hopefully, the progress we have recently made will continue 
so we can rely on the accrediting agencies to assess the 
quality of our institutions of higher learning, and I thank the 
witnesses for providing us with good information, and I yield 
back the balance of my time.
    Chairwoman Foxx. Thank you, Mr. Scott. I have found this to 
be a very interesting discussion today, too. It raises a lot 
more questions for me. I am a little sorry I asked my questions 
first. I would like to come back and ask more, but we do not 
have time for that.
    I think one of the major questions raised, particularly by 
Mr. Mitchell, right at the end, is a big discussion going on in 
our culture, and that is what is the purpose of ``higher 
education.''
    I often say that education in our country is basically the 
only institution that has not changed for 150 years. We're 
still operating on an Agrarian Model. Nine months out of the 
year, it started out a long time ago three months out of the 
year. It really has not changed, although we have a lot of 
alternatives, and I think that is wonderful.
    I asked Ranking Member Scott when the question came up 
about only 22 percent in jobs related to their degrees. I was 
an undergraduate English major. I often point that out. That 
should have prepared me for a lot of different jobs, I believe.
    I am a firm believer in liberal arts education, but I saw 
an article this week that said we have to go more into skills 
development and away from liberal arts education, but I think 
what we are blessed with in this country, and I want it to stay 
that way, is we have a diversity of institutions who are there 
to meet the needs of many different people, and the needs of 
our culture.
    I think we should celebrate that as much as we possibly 
can. I thought, Dr. Petrisko, of your comment about one of the 
objectives of some schools is to teach critical thinking 
skills. Yet, I read reports all the time that say 34 percent of 
employers say their employees have no critical thinking skills. 
How are we getting at measuring those kinds of things?
    It is true, I completely agree with Ranking Member Scott, 
we are investing--this is a case where we are spending a lot of 
hard-earned taxpayer dollars in these institutions, and we need 
to know and the public wants to know if it is getting something 
for its money.
    I am happy for the issues to have been brought up about 
some for-profit institutions being closed precipitously, but 
what troubles me is the total lack of concern that the previous 
Administration had with the students in those institutions. It 
seems to me it was so unkind for the Department to simply pull 
the plug, and I cannot blame the accreditors for the students 
having the problem because it was the Department who said we 
are cutting you off from your money and then they closed, 
without the ability to teach out, without the ability to help 
those students make a transition.
    That was not the fault of the accreditors, I do not think. 
The accreditors may have had a responsibility. That was the 
fault of very uncaring people in the Department of Education in 
my opinion, who did not give one thought to what was going to 
happen to the students.
    I want for every student in this country, and I believe 
Ranking Member Scott does, to have the best possible 
educational experience wherever that occurs.
    We have to decide as a people are we going to subsidize 
that educational experience. Again, with taxpayer dollars.
    There is a huge range of issues here to deal with. We 
cannot take care of all of them in a hearing on accreditation. 
I think this has helped us.
    I think one of the things we did not touch on at all that I 
have to bring up and that is are the accreditors looking at the 
caliber of the students being admitted, and what is the 
responsibility of the institutions for admitting students who 
cannot graduate, who do not have the skills, and that is a 
topic I think for another day.
    Lots and lots of issues. I asked the staff while we were 
talking because I remembered looking at Kiplinger's Best 
College Values, there are institutions in here who after four 
years have a 19 percent graduation rate. Lots of issues, not 
many answers, but lots of issues to deal with.
    I thank you for helping us look at some of those issues. 
There being no further business, the committee stands 
adjourned.
    [Additional submissions by Ms. Petrisko follow:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

    [Whereupon, at 12:21 p.m., the committee was adjourned.]

                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
